PROGRESS REPORT ON DEVELOPMENT OF THE
 INTEGRATED WIRELESS NETWORK IN THE
       DEPARTMENT OF JUSTICE

         U.S. Department of Justice
       Office of the Inspector General
                Audit Division

            Audit Report 07-25
               March 2007
     PROGRESS REPORT ON DEVELOPMENT OF THE
 INTEGRATED WIRELESS NETWORK IN THE DEPARTMENT
                   OF JUSTICE

                        EXECUTIVE SUMMARY


       To enhance the ability of federal law enforcement agencies to
communicate with each other, the Departments of Justice (DOJ), Homeland
Security (DHS), and Treasury agreed in 2004 to jointly develop the
Integrated Wireless Network (IWN), a secure wireless, nationwide
communications network. As initially envisioned, IWN would support over
81,000 federal agents in 50 states and the U.S. territories when fully
implemented. Estimated to cost over $5 billion through 2021, IWN would
address federal law enforcement requirements to communicate across
agencies, allow interoperability with state and local law enforcement
partners, and meet mandates to use federal radio frequency spectrum more
efficiently.

       DOJ law enforcement components expect IWN to replace or upgrade
current legacy land mobile radio systems. IWN will likely be a combination
of land mobile radio, cellular telephones, and walkie-talkie devices. IWN is
planned to provide reliable, secure, nationwide wireless communications
capabilities and land mobile radio functionality. IWN is also intended to
enhance and simplify communications interoperability with other federal and
non-federal wireless users through increased coverage and capabilities.
Additionally, IWN is expected to reduce the capital and operational costs of
nationwide wireless communications in support of federal law enforcement
officers through economies of scale.

     The following table details the number of potential IWN users in the
DOJ, Treasury, and DHS. DHS currently is the largest potential federal user
of IWN, with 64 percent of potential users.




                                      i
                                      POTENTIAL IWN USERS

                                                              Number of
                                                            Total Users by    Percentage
                  Agency/Component                        Agency/Component   of Total Users
 Homeland Security
   Animal and Plant Health Inspection Service                         66            0.08
   U.S. Customs and Border Protection                             16,250           19.94
   Federal Emergency Management Administration                     2,954            3.62
   Federal Law Enforcement Training Center                           600            0.74
   Federal Protective Service                                      1,244            1.53
   Immigration and Customs Enforcement                            17,636           21.64
   Transportation Security Administration                          7,317            8.98
   U.S. Secret Service                                             6,124            7.51
 Homeland Security Total                                          52,191           64.04
 Justice
    Bureau of Alcohol, Tobacco, Firearms and Explosives            3,426            4.20
    Federal Bureau of Investigation                               12,751           15.64
    Federal Bureau of Prisons                                        203            0.25
    Drug Enforcement Administration                                5,147            6.31
    Office of the Inspector General                                  157            0.19
    U.S. Marshals Service                                          3,089            3.79
 Justice Total                                                    24,773           30.38
 Treasury
    Bureau of Engraving and Printing                                 279            0.34
    Internal Revenue Service                                       2,868            3.52
    Internal Revenue Service Facilities                              601            0.74
    Treasury Inspector General for Tax Administration                400            0.49
    U.S. Mint                                                        400            0.49
 Treasury Total                                                    4,548            5.58
 Total Users                                                   81,512        100.00
Source: Justice Management Division, Wireless Management Office, IWN Cost Model

Office of the Inspector General (OIG) Audit

      The OIG performed this audit to assess the status of the development
and implementation of the IWN project. The specific objectives of the audit
were to:

        •       assess the implementation of the IWN project, and

        •       assess whether DOJ legacy communication systems comply with
                the Department of Commerce’s National Telecommunications
                and Information Administration (NTIA) requirements.

                                                  ii
      To asses the implementation of IWN, we examined documents
provided to us by DOJ officials, including the memorandum of understanding
(MOU) between DOJ, DHS, and Treasury; the fiscal year (FY) 2005 Program
Plan; the IWN Strategic Plan for 2003 through 2008; the Program Weekly
Status Reviews; and the IWN Executive Status Reports and other pertinent
documents.

      We conducted fieldwork at the DOJ Wireless Management Office in
Fairfax, Virginia, at various DOJ offices including the Justice Management
Division (JMD), Procurement Services Staff in Washington, D.C., and at the
Seattle/Blaine Pilot Project in the Seattle, Washington area. We interviewed
the Chief Information Officers (CIOs) of DOJ, DHS, and Treasury and the
Directors of the DOJ and DHS Wireless Management Offices. We also
interviewed the DOJ Deputy CIO, Information Sharing; Deputy Directors of
the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the Federal
Bureau of Investigation (FBI), and the U.S. Marshals Service (USMS); and
an Assistant Administrator of the Drug Enforcement Administration (DEA).
In addition, we interviewed the DOJ Spectrum Manager, the DOJ IWN
Program Manager, and the DOJ Wireless Management Office Administration
Officer.

      We assessed the progress of the 3-phase acquisition plan to contract
with one or more non-government vendors to build IWN across the country.
We reviewed the proposals of the four vendors selected to compete in
Phase 2 of the acquisition plan and interviewed DOJ staff who served on the
management and technical evaluation teams. We also interviewed the
Assistant Director of DOJ’s Procurement Services Staff.

      To assess DOJ compliance with NTIA requirements, we interviewed the
Chief of the Spectrum Support Division of the Office of Spectrum
Management at NTIA. We also examined the Telecommunications
Authorization Act of 1992 and the NTIA Narrowband Mandate of 1993. In
addition, we obtained documents from NTIA that discussed the process for
requesting waivers and the proposed rule of the Frequency Assignment
Subcommittee to prohibit waivers for wideband operations that interfere
with narrowband operations. We also reviewed NTIA reports of frequency
assignments and waivers for noncompliant frequencies.

      In the following sections we provide background to the IWN project
before describing our audit findings on the status of IWN.




                                     iii
Background

Spectrum Management

      Government, commercial, and public entities use federal frequency
assignments and licenses for specific radio frequencies to provide mobile
telephone, paging, satellite services, radio, and television broadcasts. The
NTIA manages the complex allocation of radio frequency spectrum for all
federal users through an application and frequency assignment process.

      In an effort to further the efficient and effective use of the available
radio frequency spectrum, in 1993 the NTIA mandated that all federal
spectrum users cut their frequency usage by one-half. This process, known
as “narrowbanding,” requires replacing all wideband land mobile radio
network infrastructure and radios with narrowband-compliant technology.
Specifically, the NTIA required that the channel bandwidth used by federal
agencies be reduced from 25 to 12.5 kilohertz for very high frequency
operations by 2005 and by 2008 for ultra high frequency operations.

DOJ Legacy Wireless Communications Systems

       DOJ law enforcement officers require many different types of wireless
communications devices, such as portable radios and body transmitters to
support criminal, counterterrorism, and counterintelligence investigations
and other law enforcement operations.1 Typically, DOJ law enforcement
operations cannot rely on traditional communications equipment such as
landline telephones. Therefore, wireless communications systems are critical
to most DOJ law enforcement operations, usually providing an officer’s sole
means of connectivity to other agents and supervisors. DOJ law
enforcement officers primarily use land mobile radio technology that relies
on radio frequency signals for tactical radio communications. 2

      As part of this review, DOJ components identified 4,163 different land
mobile radio communications system sites currently in use within their
components. The vast majority of these systems use technology that is over
10 years old. Most of DOJ’s current communications devices function in an
analog rather than a digital mode, which means they have limited
functionality and diminished voice communications quality.

       1
         For the purpose of this report, the term “DOJ law enforcement officers” includes
Special Agents, Deputy Marshals, and other DOJ law enforcement officers.
       2
          Land mobile radio is a mobile radio service operating between fixed base stations,
and stations (mobile and hand-held) capable of surface movement. Radio frequency is any
frequency within the electromagnetic spectrum.

                                             iv
       The following table describes the DOJ law enforcement components’
legacy wireless communications systems and shows the age and functional
limitations of those systems. The DEA and the FBI reported the oldest radio
systems within DOJ. As detailed below, we found that most DOJ systems:
(1) cannot support over-the-air re-keying (OTAR) of encryption codes, which
means re-keying must be done manually; (2) do not provide advanced
encryption to ensure officer safety; and (3) are no longer supported by the
manufacturer, which means spare parts are difficult to find, maintenance is
essentially a customized service, and the failure rate of this equipment has
become a reliability issue. 3




      3
          A key is the code programmed into radios to allow encrypted communications
within a system. To ensure security, these keys must be changed periodically. Over-the-air
re-keying would allow a law enforcement officer to receive an updated encryption code
rather than requiring manual reprogramming by a radio technician. OTAR capability is
limited to the system capability. For example, even though individual radios may be OTAR
capable, without the system being OTAR capable there is no OTAR functionality within the
system.

                                            v
                        DOJ COMPONENT LEGACY COMMUNICATIONS SYSTEMS

                                                                           Percent of
                                   Average       Percent of                 Systems     Percent of
                      Number of     Age of      Systems Not    Systems      Lacking      Systems     Percent of
                       System      Systems      Narrowband    Frequency      OTAR        Lacking      Systems
      Component         Sites 4     (Years)      Compliant       Type      Capability     AES 5      Obsolete 6
 Bureau of Alcohol,
                                                              Very High
 Tobacco, Firearms,      466          10              0%                       100%        100%          0%
                                                              Frequency
 and Explosives 7
 Drug Enforcement                                             Ultra High
                         640          13             76%                        24%        100%         71%
 Administration                                               Frequency
 Federal Bureau                                               Very High
                        3,057         12             91%                        95%          93%        84%
 of Investigation                                             Frequency
 U.S. Marshals           Not          Not           Not           Not         Not          Not          Not
         8
 Service              Applicable   Applicable    Applicable   Applicable   Applicable   Applicable   Applicable
 TOTAL                  4,163                        79%                        85%          95%        73%
Source: Information derived from DOJ components

           Because the DEA’s radio systems operate on the ultra high frequency
     band, which is not compatible with the very high frequency band,
     interoperability between DEA radio systems and those of the ATF, FBI, and
     USMS is more difficult, although not impossible to achieve. 9 As part of the
     implementation of the IWN program, the DEA is expected to transition to
     very high frequency operations. However, until IWN is completed, the DEA
     must purchase, operate, and maintain costly dual-band radios to allow
     interoperability with other law enforcement organizations, including those in
     the DOJ.




            4
              For the purpose of this audit, we are comparing the number of radio sites per
     reported system. Radio sites are typically the basic cost unit of a communications system.
            5
              The Advanced Encryption Standard (AES) is an encryption algorithm that was
     approved by the National Institute of Standards and Technology in November 2001 for use
     by U.S. Government organizations to protect sensitive information. This algorithm replaces
     the Data Encryption Standard (DES) that has been in use since 1977 and is no longer
     approved for Federal use.
            6
             For the purpose of this audit, obsolete systems are systems that are no longer
     supported by the manufacturer.
            7
                The DOJ OIG uses ATF’s systems for its radio communications.
            8
               The USMS primarily uses FBI’s systems for its radio communications. The USMS is
     in the process of installing a new radio system with multiple radio sites in the New York/New
     Jersey area.
            9
              A DEA official told us that their communications systems are ultra high frequency
     because that spectrum was available when the DEA was established in 1972.

                                                      vi
      Moreover, the older radios are large, obtrusive, and less reliable.
Several DOJ officials told us during the audit that because of these factors,
DOJ agents are sometimes using commercial communications devices such
as cellular telephones and walkie-talkies, which are vulnerable to
interception, for communicating with each other instead of agency hand-held
radios.

Origins of IWN

       In July 1998, Congress directed DOJ components to consolidate their
individual efforts to replace their land mobile radio systems and created the
DOJ Narrowband Communications Account to centrally fund conversion to
narrowband radio communications. In addition, Congress directed DOJ’s
JMD to serve as the central purchasing agent for all DOJ communications
equipment and to develop an integrated, department-wide strategic plan to
meet the narrowband conversion and interoperability requirements of DOJ.
In October 1998, the Attorney General created the Wireless Management
Office within JMD to oversee and direct DOJ’s consolidated approach to
wireless communications and to centrally manage the consolidated wireless
account.

       Prior to FY 2002, DOJ and Treasury were independently pursuing
solutions to meet the NTIA narrowband mandate. Due to the similar and
complementary nature of the law enforcement missions and the co-location
and overlapping geographic jurisdictions of the two departments, in
November 2001, DOJ and Treasury signed a MOU agreeing to improve
communications operability between and among their law enforcement
agencies; improve communications operability between DOJ and Treasury
and state, local, and other federal law enforcement agencies; achieve cost
efficiencies; and meet the narrowband mandate. 10 The MOU also
established the IWN Joint Program Office to provide day-to-day
management of the IWN program. The Joint Program Office received senior
executive oversight and staff from both departments.

Seattle/Blaine Pilot Project

      In September 2001, prior to the DOJ and Treasury combining efforts,
the DOJ awarded a contract to identify and define the wireless
communications requirements for DOJ components, convert the
requirements to a recommended plan, and develop a design concept for a


      10
         In 2001, DOJ law enforcement components included the DEA, FBI, Immigration
and Naturalization Service, and U.S. Marshals Service. Treasury law enforcement
components included the U.S. Secret Service, U.S. Customs Service, and ATF.

                                         vii
consolidated approach to meet the wireless communications needs of the
DOJ. In November 2001, the scope of the contract was expanded to include
the requirements of Treasury’s law enforcement bureaus. The contractor’s
final report, the 2002 IWN design, recommended a very high frequency land
mobile radio design that used “trunking,” a computer-controlled system that
automatically allocates an open frequency from a pool of frequencies when a
user initiates a radio call. The report recommended an aggressive
implementation schedule beginning in January 2003 and ending in 2010.

      Based on the results of the 2002 IWN design, in November 2002 the
Joint Program Office awarded a contract to acquire the necessary hardware,
software, and services for a pilot project to demonstrate the feasibility of the
proposed technology. The pilot project, called the Seattle/Blaine Pilot
Project, was initiated in the metropolitan Seattle, Washington, area and
became fully operational in December 2004.

      The pilot project provides a trunked, interoperable network that
provides tactical wireless radio communications for over 600 federal users
from 5 federal agencies, including the ATF, DEA, FBI, and USMS, which is
interoperable with state and local law enforcement organizations in the
Seattle/Blaine area. As part of the Seattle/Blaine Pilot Project, 17 radio sites
were either built, purchased, upgraded, or borrowed from state and local
organizations. These sites communicate with the individual users’ radios
and with the prime site. The prime site houses the computer hardware and
software and circuit connections that comprise the “brains” of the network.

      The communication system tracks users in the coverage area and
assigns the frequency most readily available to receive and transmit their
radio communications to the prime site. As a result, users do not have to
manually change radio channels as they move from one channel’s coverage
area to another. Users are organized into talk groups based on their
organization and functional requirements. Users in each talk group can
communicate with other members in the same group, and users can
communicate with other talk groups by requesting and receiving permission
from other talk groups. The Joint Program Office funded the procurement of
IWN compatible hand-held and mobile radios for the agencies participating
in the Seattle/Blaine Pilot Project.

      From its inception in November 2002 through September 2004, the
Seattle/Blaine Pilot Project cost approximately $32 million. According to the
Seattle/Blaine Beta Benchmark Assessment, the Seattle/Blaine Pilot Project
reduced the number of required radio frequency sites from 43 to 15 in the
Seattle/Blaine area, which resulted in estimated annual savings of $126,000


                                      viii
in site lease costs. 11 According to the assessment, the pilot project also
successfully demonstrated 66 percent more efficient use of spectrum
resources through the use of trunking technology, which in addition to
meeting federal narrowbanding requirements reduced the number of radio
frequency assignments from 331 to 114. Importantly, the pilot project
demonstrated the feasibility of a government owned, managed, and
operated integrated wireless network among five federal agencies and
proved the viability of the technology identified by the 2002 IWN design.

       However, in April 2003 the DOJ Deputy CIO for Information Sharing
reported to the IWN Executive Board that while the IWN acquisition strategy
used for the Seattle/Blaine Pilot Project would adequately address current
communications requirements of the DOJ, DHS, and Treasury, it might not
be flexible enough to meet any change in requirements and to integrate new
technologies over the life of the procurement. In addition, the Deputy CIO
said that expanding the IWN project nationwide using the design and
acquisition process from the Seattle/Blaine Pilot Project would not have been
a good business decision because the DOJ had identified only one vendor
capable of meeting requirements of a contract to expand the Seattle/Blaine
Pilot Project nationwide. He said that without competition, cost savings and
technological advantages would have been minimized. Further, the 2002
IWN design did not include industry advances in wireless technology and did
not incorporate commercial services into the solution. Therefore, in July
2004 the IWN Executive Board initiated the current acquisition strategy to
implement IWN on a nationwide basis. The Joint Program Office is in the
final phase of the acquisition and plans to award contracts to one or more
vendors in the second quarter of FY 2007.

Current Partnership with Treasury and Homeland Security

      Creation of the DHS in November 2002 resulted in the transfer of
several law enforcement agencies from Treasury and the DOJ to DHS,
including components responsible for border protection and immigration and
customs enforcement.

     After the creation of DHS, in June 2004, the DOJ, DHS, and the
Treasury CIOs signed a MOU whereby they agreed to develop, implement,
and manage a joint wireless system. 12 To provide executive-level guidance
and policy direction for the Joint Program Office, the new MOU established

      11
          The Seattle/Blaine Beta Benchmark Assessment, completed in May 2004, reported
the progress of the project toward achieving the overall goals of the IWN program.
      12
           A copy of the MOU between DOJ, Treasury, and DHS is in Appendix 4.


                                            ix
the Integrated Wireless Network Executive Board (IWN Executive Board) and
designated the CIOs from each of the three sponsoring departments as
co-chairs.

      The IWN Executive Board’s acquisition strategy envisioned selecting a
single contractor to implement the entire IWN program after completing the
following three phases.

       Phase 1 was based on information submitted by vendors regarding
       their high-level conceptual approach, organizational experience, and
       past performance. 13 Four vendors elected to continue in the
       acquisition process. Phase 1 was completed in December 2004.

       Phase 2 was the evaluation of detailed technical, management, and
       cost proposals received from four vendors to accomplish the entire
       IWN program. The evaluation resulted in the award of indefinite
       delivery/indefinite quantity contracts to two vendors to prepare and
       deliver a detailed system design for a specific geographic area, an
       implementation plan for that area, and a firm fixed price to accomplish
       the implementation. In addition, the chosen contractors are required
       to submit a projected incremental design and implementation plan for
       the complete IWN deployment. 14 Phase 2 was originally scheduled for
       completion in May 2005 but was not completed until June 2006.

       Phase 3 is a design competition, expected to result in the selection of
       one or both contractors to implement the IWN program. The final
       contract will be for network integration, including planning, design,
       build-out, deployment, operations, program management,
       interoperability, technology refreshment/change, training, and
       maintenance of IWN. Phase 3 currently is scheduled for completion in
       the second quarter of FY 2007.




       13
           Phase 1 was an acquisition process whereby an agency publishes a pre-solicitation
notice that provides a general description of the scope or purpose of the acquisition and
invites potential offerors to submit information that allows the government to advise the
offerors about their potential to be viable competitors.
       14
           An indefinite delivery/indefinite quantity contract is a contract for supplies or
services that does not specify a firm quantity of supplies or services other than a minimum
or maximum quantity, and provides for the issuance of delivery or task orders during the
contract period.


                                              x
       However, representatives from several DOJ law enforcement
components told us they were extremely concerned with the length of time it
is taking to implement IWN. The IWN project began in 2001 and the current
acquisition strategy is about 15 months behind schedule. As discussed in
the next section of the report, we found serious concerns regarding the
funding of this crucial law enforcement program, fractures in the IWN
partnership, and an ineffective governing structure for the program. As a
result, successful completion of the integrated wireless network for the DOJ,
DHS, and Treasury departments is in jeopardy.

OIG Audit Results

       The OIG performed this audit to assess the status of the development
and implementation of the IWN project. We found that the IWN project,
which may cost $5 billion, is at high risk of failing to secure an integrated
wireless network for use by DOJ, DHS, and Treasury. 15 The causes for the
high risk of failure include: (1) uncertain funding for the project; (2)
disparate departmental funding mechanisms that allow the departments to
pursue separate wireless communications solutions apart from IWN; (3) the
fractured nature of the IWN partnership; and (4) the lack of an effective
governing structure for the project. Unless these issues are addressed, a
joint wireless communication system may not be developed and the
resulting separate agency communications systems may not be adequate in
the event of another terrorist attack or natural disaster that requires a
coordinated emergency response.

      In the report sections that follow, we discuss our findings for each of
these concerns before describing the potential consequences of the failure to
develop IWN. We then provide our recommendations regarding the IWN
project.




       15
          Under the current IWN partnership MOU, DOJ and DHS equally share the design
and implementation costs of IWN. Assuming a similar cost sharing arrangement as the
program goes forward, DOJ’s share of the estimated $5 billion in life cycle costs through
2021 is $2.5 billion.

                                            xi
Wireless Communication Funding Concerns

      Two funding issues increase the IWN program’s risk of failure. First,
there is substantial uncertainty that the program will be adequately funded.
Second, disparate funding mechanisms within the participating departments
allow the DHS to upgrade, repair, or replace its components’ legacy
communication systems individually, while the DOJ operates under a
mandate from Congress to develop a department-wide solution.

Uncertain Funding

       IWN is currently one of the most expensive items in the Department’s
Information Technology Investment Portfolio. The DOJ life cycle costs for
IWN through 2021 are projected to exceed $2.5 billion. 16 During our audit,
the DOJ CIO told us that without a major increase in funding the IWN
program will not be completed. The DOJ Deputy CIO for Information
Sharing told us that if IWN is not implemented, DOJ will still need to invest
about $900 million to replace legacy communications equipment, such as
mobile and hand-held radios, repeaters, and base stations that IWN was
intended to upgrade. The DOJ CIO also noted that while replacing legacy
equipment with new equipment would solve encryption problems and resolve
the narrowband issue, it would not fully address the problem of “stove-pipe”
communications among DOJ components and would only marginally address
interoperability. In our judgment, if IWN is not implemented, DOJ will miss
a critical opportunity to provide more effective communications support to
its law enforcement agents in the field.

       Through FY 2006, approximately $772 million has been appropriated
to fund the DOJ Narrowband Communications Account. However, instead of
funding new technological solutions, almost two-thirds of this funding has
been used to maintain the DOJ’s antiquated legacy systems. As the DOJ
equipment continues to age, these costs are expected to increase by
5 percent each year. Since the inception of the Narrowband
Communications Account in FY 2000, the cost of operating and maintaining
legacy communications has been between 38 percent and 80 percent of the
total program costs each fiscal year.




       16
         Life cycle costs are the estimated costs associated with program planning, project
implementation, and the operation and maintenance of legacy and IWN communications
systems over a 15-year period.

                                            xii
Disparate Departmental Funding Mechanisms

      Funding of all DOJ legacy land mobile radio systems, including IWN, is
consolidated within the Narrowband Communications Account that is
managed by JMD’s Wireless Management Office. Because DOJ’s wireless
communications budget is consolidated, the Wireless Management Office is
responsible for funding the components’ legacy radio systems operations
and maintenance needs. The Narrowband Communications Account’s
appropriation language directs that no DOJ component can develop or
procure additional radio equipment or infrastructure without prior approval
from JMD. Consequently, DOJ components receive funding to operate and
maintain their legacy communications systems through reimbursable
agreements with the Wireless Management Office.

       The DOJ Deputy CIO for Information Sharing told us that if a DOJ
component needs to replace legacy equipment, it must request funding
approval from the Wireless Management Office. The components are
required to demonstrate the imminent failure of a particular system to
receive funding to upgrade or replace existing legacy equipment and
infrastructure. The DOJ Deputy CIO said that any remaining funding after
individual component legacy communications operations and maintenance
needs are met is allocated to IWN related investments.

       Unlike at the DOJ, funding for DHS components’ legacy
communications is not consolidated in a central account, which provides for
significant flexibilities in decision making. The DHS has the flexibility to
meet the immediate needs of their components by replacing and upgrading
their legacy communications systems while still participating in IWN.
Consequently, the DHS CIO can allocate narrowband conversion resources to
individual components, programs, or geographic locations that he believes
are in the best interest of the DHS. DOJ, in contrast, is required to develop
an integrated department-wide solution because of the congressional
requirement that all wireless communications spending be consolidated and
managed by a central office. At a May 2006 Department Investment
Technology Review Board meeting, the Deputy Attorney General expressed
concern that this disparate funding structure is encouraging inefficiencies
and the DOJ is losing the opportunity to create a truly integrated network. 17



      17
         The Department Investment Technology Review Board is charged with overseeing
the Department’s IT investment management program by monitoring the selection and
performance of IT investments that are high profile, high cost, and/or high risk.


                                         xiii
Fracture in the IWN Partnership

      Our audit found strong indications that the IWN partnership is
fractured. It appears that the DOJ and DHS are now pursuing separate
wireless communications solutions instead of a single joint solution. The
current MOU between DOJ, DHS and Treasury requires the departments to
collaborate annually on a joint budget submission to request funding for the
IWN program. For FYs 2005 through 2007, the departments collaborated on
and submitted joint Office of Management and Budget Exhibit 300s. 18
However, DOJ and DHS submitted separate Office of Management and
Budget Exhibit 300s for IWN for FY 2008. In our judgment, such a sharp
departure from the MOU calls into question the nature of the IWN
partnership.

       In October 2006, the DHS CIO told us that DHS is fully committed to
the IWN program and has demonstrated its commitment by contributing
staffing and funding resources. 19 The DHS CIO also told us that DHS is
consolidating its existing networks into a primary communications
infrastructure called OneNet, similar to the DOJ’s JUTNet, and expects all
DHS networks to be operating on OneNet within a year. 20 In March 2006,
the DHS Wireless Management Office Director stated that DOJ appears
focused on using trunking technology in a single, nationwide solution. 21
However, he said that DHS wants to use the IWN contract or contracts to
acquire the necessary supplies and services to implement individual
solutions for its priority geographic locations rather than a single, integrated
wireless communications solution. The Director stated that as DHS begins

       18
           The Office of Management and Budget requires agencies to submit Exhibit 300s
for major information technology investments as part of its budget justification and
reporting process. The Exhibit 300 demonstrates compliance with capital programming and
planning and investment control policies and justifies new or continued funding for major
acquisitions. The Office of Management and Budget uses the Exhibit 300 to make decisions
about budgetary resources and to assess agencies’ programming processes.
       19
         As we explain later, there has been significant turnover in the DHS CIO position
during IWN development.
       20
          OneNet is a planned communications network that will result from the
consolidation of the DHS components’ sensitive but unclassified data networks. JUTNet is a
planned single, secure network that will handle classified and sensitive but unclassified
material to replace the Justice Consolidated Network.
       21
           As previously defined, trunking is a computer-controlled system that uses all the
available frequencies in a pool, automatically allocating an open frequency each time
someone on the system initiates a radio call. Although trunking technology provides greater
spectrum efficiency and functionality, this technology costs significantly more than
conventional technology.

                                            xiv
this process in each location, it will approach DOJ, Treasury, and other
departments to determine if it is feasible to develop a joint solution.

       We discussed DHS’s and Treasury’s participation in the IWN project
with the DOJ Deputy CIO for Information Sharing. He stated that the DOJ
had been the only major player in the project for a considerable period of
time. He also said that while Treasury had been a major participant, their
participation in the project was minimized as a result of the reorganization
that resulted in the creation of DHS. However, the DOJ CIO stated that DHS
has never participated at the level DOJ expected.

      The DOJ Deputy CIO for Information Sharing also told us that DOJ is
pursuing a single, integrated solution for IWN. He said that if DOJ
cannot build IWN with DHS, at least it can develop an integrated
communications network for DOJ. The Deputy CIO also told us that if DHS
uses the IWN contract or contracts only as procurement vehicles, at least
there would be some commonality in equipment, services, and vendors
between the departments’ individual solutions.

      The IWN partnership currently appears to be fractured in its approach
and disjointed in its goals to develop a secure, wireless, nationwide
communication network. We believe that, as result, the system that results
from this partnership likely will not be the seamless, interoperable system
that was originally envisioned and therefore the communication systems
may not be adequate in the event of another terrorist attack or national
disaster.

Lack of Effective Governing Structure

      We found that the IWN project also does not have an effective
governing structure because there is no practical mechanism to resolve
disagreements between departments. The June 2004 MOU assigns the
governance of IWN to the IWN Executive Board, and requires that decisions
be made by consensus. However, as the DOJ Deputy CIO for Information
sharing told us, if DOJ and DHS do not agree, IWN does not go forward. The
MOU does not provide a process to move forward in the absence of
consensus. This is of particular concern because, according to the Deputy
CIO, repeated turnover in key DHS personnel has resulted in time
consuming efforts to re-examine previous decisions with new DHS officials to
reach consensus.

      We were told that since the formation of the current partnership in
June 2004, DHS has had two Wireless Management Office Directors, and
that as of October 3, 2006, the position was vacant. During this same

                                      xv
period, DHS has had two CIOs and one acting CIO. Furthermore, language
in DHS FY 2007 appropriations law established the Office of Emergency
Communications and transferred IWN responsibilities to that office. Because
IWN administration has been the DHS CIO’s responsibility, we are concerned
that DOJ will again be faced with the need to revisit previous decisions with
new DHS personnel.

      Radio program managers and senior managers from four DOJ
components also expressed concern regarding IWN program delays, the
nature of the IWN partnership, and their inability to influence IWN Executive
Board decisions related to the IWN program. The consistency and critical
nature of the issues raised by DOJ radio program managers and senior
managers demonstrate the components’ frustration with the development
and implementation of IWN.

Consequences of IWN Project Failure

      The failure of IWN could have significant adverse consequences, even
beyond the financial losses. A failure to upgrade DOJ components’
antiquated communications systems, with or without IWN, represents a risk
to the safety of DOJ law enforcement officers and agents. Further, failure of
the IWN project will represent significant missed opportunities to achieve
cost and spectrum efficiencies and needed communications interoperability
between federal law enforcement agencies. In addition, because DOJ plans
to address its narrowband requirements with IWN, failure of the program will
require the DOJ to seek alternative solutions such as a department-wide
network or a network developed by DOJ and Treasury.

       Safety: Wireless communications systems are a critical part of most
law enforcement operations, and usually provide the sole means of
communications connectivity that is crucial to the overall operation. DOJ
has been relying on IWN to address a myriad of problems with its current
wireless communications systems. Over the years, the performance of its
wireless communication systems has degraded in terms of coverage,
reliability, and usability. The systems provide limited federal-to-federal and
federal-to-state/local interoperability, do not use radio spectrum efficiently,
and require extensive operations and maintenance funds.

       The vast majority of DOJ legacy systems are comprised of technology
that is over 10 years old. As a result, devices function only on wideband
land mobile radio channels that are no longer compliant with NTIA policy, or
only with a Digital Encryption Standard algorithm which is no longer
supported by the National Institute of Standards and Technology and is
recognized as “weak” security. We were told that the current encryption

                                      xvi
standard used by the majority of DOJ’s legacy systems is vulnerable to
amateur hacking attempts, and that communications may be intercepted by
unauthorized parties, thereby jeopardizing operations. Further, most of
DOJ’s current devices function in an analog versus digital mode, which
means they have limited functionality and diminished voice communications
quality.

      We found that, due to the age of the equipment, 73 percent of DOJ’s
4,163 radio system sites are no longer supported by the manufacturer and
these obsolete radios are also large and obtrusive. Several DOJ officials told
us that agents are sometimes using commercial service devices that are
vulnerable to interception in lieu of hand-held radios. In our judgment, this
represents a serious, unacceptable safety risk to agents and DOJ law
enforcement operations.

       Cost Efficiency: When the Narrowband Communications Account was
created in 1998, one of the primary concerns expressed in the
appropriations language was the need to increase efficiency and savings
through shared infrastructure and common procurement strategies. The
2002 IWN cost model estimated approximately $1.19 billion in additional
investment costs if the departments do not collaborate and instead develop
their own tactical communications solutions.

      Spectrum Efficiency: DOJ is one of the largest users of very high
frequency spectrum, with more than 14,000 frequency assignments.
Approximately 70 percent of the radio frequencies assigned to DOJ are for
tactical communications support, which is critical to agent safety and
operational effectiveness. However, as of April 2006, only 22 percent of
these frequencies are narrowband compliant.

      The Chief of the Spectrum Support Division of the Office of the
Spectrum Management at NTIA told us that for calendar years 2005 and
2006, agencies that had not met the narrowband requirement were allowed
to request waivers to continue protected wideband operations on the
frequencies subject to the NTIA mandate. The Chief of the Spectrum
Support Division said that during the past 2 years NTIA had received and
granted tens of thousands of waiver requests.

      However, in September 2006 the NTIA's Frequency Assignment
Subcommittee approved a change that will eliminate waivers that would
allow continued protection for wideband operations on the frequencies
subject to the NTIA mandate and instead require the NTIA’s Frequency
Assignment Subcommittee to adjudicate only unresolved conflicts that arise
between agencies involved in overlapping narrowband and wideband

                                     xvii
operations. As a result, beginning January 1, 2007, DOJ will be operating on
a non-interference basis on 10,129 frequency assignments. This means that
DOJ law enforcement communications on those frequency assignments may
be subject to interference from narrowband communications of other
agencies and that DOJ will have no basis to request the interfering operation
to stop. Further, if DOJ wideband operations interfere with other users’
narrowband operations, DOJ could be required to cease operating on the
frequency.

      Interoperability: The initial IWN design that was the basis for the
Seattle/Blaine Pilot Project addressed interoperability by planning for
gateways that would allow IWN users to communicate with state and local
public safety communication systems. According to The National
Commission on Terrorist Attacks upon the United States (9/11 Commission):

      The inability to communicate was a critical element at the World Trade
      Center, Pentagon, and Somerset County, Pennsylvania, crash sites,
      where multiple agencies and multiple jurisdictions responded. The
      occurrence of this problem at three very different sites is strong
      evidence that compatible and adequate communications among public
      safety organizations at the local, state, and federal levels remains an
      important problem. 22

     We asked the IWN Executive Board representatives about IWN’s
progress toward achieving the goal of interoperability.

      According to the DHS CIO, DOJ and DHS can achieve interoperability,
including wireless communications interoperability, through gateways
between JUTNet and OneNet, the two primary departmental networks. The
DHS CIO told us that because the DHS cannot wait for IWN, it has included
the requirement for IWN interoperability in its recent Secure Border Initiative
contract.

      According to the DOJ Chief Information Officer, DHS’s following an
independent approach would not rule out interoperability, but the resulting
communication system would not be as well coordinated as a system
developed through an integrated approach and would make interoperability
more difficult and costly to achieve.

      The Treasury Chief Information Officer advised us that if DHS pursues
an independent approach, “interoperability will be fuzzy” and that as long as

      22
         National Commission on Terrorist Attacks Upon the United States, Final Report of
The National Commission on Terrorist Attacks Upon the United States (2004)

                                          xviii
one department is free to go their own way, nothing can be done to improve
interoperability. He also stated that the goal of all the departments is to
increase interoperability, not only for emergency situations, but for
day-to-day operations.

      The level of interoperability described by the IWN Executive Board
representatives does not reflect the seamless communications capability
originally envisioned for the network and, in our judgment, may not be
adequate in the event of another terrorist attack or natural disaster.

Conclusion

      Our audit found that the IWN program is facing significant challenges
and a high risk that the joint narrowband communications network originally
envisioned for the DOJ, DHS, and Treasury will not be realized. Despite over
6 years of development and more than $195 million in funding for IWN,
apart from one pilot system DOJ law enforcement agents have received little
in the way of new, secure, compliant radio equipment through IWN. We
found that the causes for the risk of failure include uncertain funding to
complete the project, disparate departmental funding mechanisms, a
fractured IWN partnership, and the lack of an effective governing structure
for the project.

       A failure of the IWN project would represent a significant missed
opportunity to achieve needed communications interoperability among
federal, state, and local law enforcement agencies. In addition, failure of the
joint IWN project will require DOJ and other agencies to independently
create communications networks, which we believe would result in
substantially increased overall costs and less efficient use of the radio
spectrum. Moreover, failure to upgrade DOJ components’ antiquated
communications systems with or without IWN would represent an
unnecessary risk to the safety of DOJ law enforcement agents and
Department law enforcement operations.

      DOJ has been relying on IWN to address a myriad of problems with its
current wireless communications systems, which consist of multiple
stove-piped land mobile radio systems with infrastructure dating back 15 to
20 years. Over the years, the performance of these systems has degraded
in terms of coverage, reliability, and usability. Of the Department’s
4,163 radio system sites, 3,022 are no longer supported by the
manufacturer, which means spare parts are difficult to find and maintenance
is essentially a “custom service.” In addition, much of the Department’s
current radio equipment is large and obtrusive. We were told that the size
of current hand-held radios, combined with their limited functionality and

                                      xix
decreasing reliability, has lead some DOJ agents to use commercial cellular
telephones and walkie-talkies that are vulnerable to interception in lieu of
hand-held radios.

      Just to replace its antiquated legacy wireless communications
equipment would cost DOJ approximately $900 million. However, DOJ will
require more than twice that amount to fund its share of IWN.
Consequently, for the DOJ, DHS, and Treasury to complete IWN as planned,
a major infusion of funding will be required over the next several years.

       Our audit found that the fractured nature of the current IWN
partnership and the disjointed approach of the two primary partners to
achieve the IWN goals seriously threatens the success of the IWN program.
In order to salvage the intended multi-agency project, we believe IWN
requires a partnership among the agencies involved, with a commitment to
common goals and methods to achieve those goals. DOJ, DHS, and
Treasury need to commit to a joint IWN solution rather than addressing
individual communications issues in their respective departments. The three
departments also must develop a cohesive management approach to direct
IWN development and deployment.

      The current ineffective governing structure of the IWN program has led
to significant delays in the program. Valuable time has been spent reaching
decisions between agencies that are revisited due to turnover of key
personnel. Due to the complexity, expense, and critical nature of this
program, a coordinated and effective governing structure is imperative for
IWN to succeed.

Recommendations

      Our report contains four recommendations. We recommend that DOJ
establish an agreement with the DHS and Treasury departments that
accurately reflects each agency’s commitment to the IWN project. This
agreement should explicitly state the shared goals, equitable responsibilities,
and comparable resource contributions and funding requirements of the
sponsoring departments.

      If the departments are unable to reach agreement on a unified
approach, we recommend that the DOJ notify Congress and the Office of
Management and Budget that the IWN project is not viable as a joint project
with DHS, and that DOJ and Treasury are pursuing their own IWN strategy
to meet their department’s wireless communications requirements.



                                      xx
      In addition, if DOJ is unable to reach agreement on a unified approach
with DHS and Treasury, the DOJ must develop and implement a
departmental plan to upgrade its legacy wireless communications systems.

      We also recommend that the Assistant Attorney General for
Administration ensure that an agreement is reached that allows DOJ to
continue its wideband operations on very high and ultra high frequencies
without interference.




                                     xxi
                               TABLE OF CONTENTS


INTRODUCTION .................................................................................1
    Office of the Inspector General (OIG) Audit ................................... 3
    Background................................................................................ 4

FINDING AND RECOMMENDATIONS.................................................18
    SUCCESSFUL COMPLETION OF THE INTEGRATED WIRELESS
    NETWORK IS IN JEOPARDY.................................................... 18
    Wireless Communication Funding Concerns .................................. 19
    Fracture in the IWN Partnership .................................................. 24
    Lack of Effective Governing Structure .......................................... 27
    Consequences of IWN Project Failure ........................................... 29
    Conclusion ............................................................................... 37
    Recommendations..................................................................... 39

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .......40

STATEMENT ON INTERNAL CONTROLS.............................................41

APPENDICES....................................................................................42
    Appendix 1 - Objectives, Scope, and Methodology ....................... 42
    Appendix 2 - Acronyms............................................................ 44
    Appendix 3 - Description of IWN Southwestern Border Area ......... 45
    Appendix 4 - Memorandum of Understanding between DHS, DOJ,
                     and Treasury ..................................................... 47
    Appendix 5 - Agency Very High Frequency Licenses and Percent
                     Compliant ......................................................... 53
    Appendix 6 - Waivers Granted by NTIA ..................................... 55
    Appendix 7 - Department of the Treasury Response to the
                   Draft Report ........................................................ 57
    Appendix 8 - Department of Homeland Security Response to the
                   Draft Report ........................................................ 59
    Appendix 9 - Justice Management Division Response to the
                     Audit Recommendations ...................................... 60
    Appendix 10 - Office of the Inspector General, Audit Division
                     Analysis and Summary of Actions Necessary to Close
                     the Report ......................................................... 63
     PROGRESS REPORT ON DEVELOPMENT OF THE
 INTEGRATED WIRELESS NETWORK IN THE DEPARTMENT
                   OF JUSTICE

                            INTRODUCTION


      To enhance the ability of federal law enforcement agencies to
communicate with each other, the Departments of Justice (DOJ), Homeland
Security (DHS), and Treasury agreed in 2004 to jointly develop the
Integrated Wireless Network (IWN), a secure wireless, nationwide
communications network. As initially envisioned, IWN would support over
81,000 federal agents in 50 states and the U.S. territories when fully
implemented. Estimated to cost over $5 billion through 2021, IWN would
address federal agency requirements to communicate across agencies, allow
interoperability with state and local law enforcement partners, and meet
mandates to use federal radio frequency spectrum more efficiently.

       DOJ law enforcement components expect IWN to replace or upgrade
current legacy land mobile radio systems. IWN will likely be a combination
of land mobile radio, cellular telephones, and walkie-talkie devices. IWN is
planned to provide reliable, secure, nationwide wireless communications
capabilities and land mobile radio functionality. IWN is also intended to
enhance and simplify communications interoperability with other federal and
non-federal wireless users through increased coverage and capabilities.
Additionally, IWN is also expected to reduce capital and operational costs of
nationwide wireless communications in support of federal law enforcement
officers through economies of scale.

     The following table details the number of potential IWN users in the
DOJ, Treasury, and DHS. DHS currently is the largest potential federal user
of IWN, with 64 percent of the users.
                                      POTENTIAL IWN USERS

                                                              Number of
                                                            Total Users by    Percentage
                  Agency/Component                        Agency/Component   of Total Users
 Homeland Security
   Animal and Plant Health Inspection Service                         66            0.08
   U.S. Customs and Border Protection                             16,250           19.94
   Federal Emergency Management Administration                     2,954            3.62
   Federal Law Enforcement Training Center                           600            0.74
   Federal Protective Service                                      1,244            1.53
   Immigration and Customs Enforcement                            17,636           21.64
   Transportation Security Administration                          7,317            8.98
   U.S. Secret Service                                             6,124            7.51
 Homeland Security Total                                          52,191           64.04
 Justice
    Bureau of Alcohol, Tobacco, Firearms and Explosives            3,426            4.20
    Federal Bureau of Investigation                               12,751           15.64
    Federal Bureau of Prisons                                        203            0.25
    Drug Enforcement Administration                                5,147            6.31
    Office of the Inspector General                                  157            0.19
    U.S. Marshals Service                                          3,089            3.79
 Justice Total                                                    24,773           30.38
 Treasury
    Bureau of Engraving and Printing                                 279            0.34
    Internal Revenue Service                                       2,868            3.52
    Internal Revenue Service Facilities                              601            0.74
    Treasury Inspector General for Tax Administration                400            0.49
    U.S. Mint                                                        400            0.49
 Treasury Total                                                    4,548            5.58
 Total Users                                                   81,512        100.00
Source: Justice Management Division, Wireless Management Office, IWN Cost Model

       In July 2004, the sponsoring departments initiated a procurement
process to develop IWN. Currently, the sponsoring departments are in the
final phase of the acquisition of a communications system and are awaiting
detailed system design and implementation plans and cost proposals from
two vendors for a wireless communications system to meet the needs of the
sponsoring departments in the Southwest Border area. Once these
submissions are received and evaluated, a selection will be made for one or
both vendors to implement IWN nationwide.




                                                  2
Office of the Inspector General (OIG) Audit

      The OIG performed this audit to assess the status of the development
and implementation of the IWN project. The specific objectives of the audit
were to:

     •     assess the implementation of the IWN project, and

     •     assess whether DOJ legacy communication systems comply with
           the Department of Commerce’s National Telecommunications
           and Information Administration (NTIA) requirements.

      To asses the implementation of IWN, we examined documents
provided to us by DOJ officials, including the memorandum of understanding
(MOU) between DOJ, DHS, and Treasury; the fiscal year (FY) 2005 Program
Plan; the IWN Strategic Plan for 2003 through 2008; the Program Weekly
Status Reviews; and the IWN Executive Status Reports and other pertinent
documents.

       We conducted fieldwork at the DOJ Wireless Management Office in
Fairfax, Virginia, at various DOJ offices, including the Justice Management
Division (JMD), Procurement Services Staff in Washington, D.C. and at the
Seattle/Blaine Pilot Project site in the Seattle, Washington area. We
interviewed the Chief Information Officers (CIOs) of DOJ, DHS, and Treasury
and the Directors of the DOJ and DHS Wireless Management Offices. We
also interviewed the DOJ Deputy CIO, Information Sharing; Deputy Directors
of the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the
Federal Bureau of Investigation (FBI), and the U.S. Marshals Service
(USMS); and an Assistant Administrator of the Drug Enforcement
Administration (DEA). In addition, we interviewed the DOJ Spectrum
Manager, the DOJ IWN Program Manager, and the DOJ Wireless
Management Office Administration Officer.

      We assessed the progress of the 3-phase acquisition plan to contract
with one or more non-government vendors to build IWN across the country.
We reviewed the proposals of the four vendors selected to compete in
Phase 2 of the acquisition plan and interviewed DOJ staff who served on the
management and technical evaluation teams. We also interviewed the
Assistant Director of DOJ’s Procurement Services Staff.

      To assess DOJ compliance with NTIA requirements, we interviewed the
Chief of the Spectrum Support Division of the Office of Spectrum
Management at NTIA. We also examined the Telecommunications
Authorization Act of 1992 and the NTIA Narrowband Mandate of 1993. In

                                     3
addition, we obtained documents from NTIA that discussed the process for
requesting waivers and the proposed rule of the Frequency Assignment
Subcommittee to prohibit waivers for wideband operations that interfere
with narrowband operations. We also reviewed NTIA reports of frequency
assignments and waivers for noncompliant frequencies.

      In the following sections we provide background to the IWN project
before describing our audit findings on the status of IWN.

Background

      Federal law enforcement agents at the DOJ primarily use land mobile
radio technology that relies on radio frequency for tactical communications.
A radio frequency signal is an electromagnetic wave, oscillating at a specific
frequency of cycles per second. The combined spectrum of these radio
frequency signals is the medium that allows wireless communications of all
kinds.

Spectrum Management

      Government, commercial, and public entities use federal frequency
assignments and licenses for specific radio frequencies to provide mobile
telephone, paging, satellite services, radio, and television broadcasts. The
Federal Communications Commission regulates interstate and international
radio, television, wire, satellite, and cable communications. The NTIA
manages the complex allocation of radio frequency spectrum for federal
users through an application and frequency assignment process.

      Demand for radio frequency spectrum, which is a finite resource, is
increasing due to the expansion of technology and the development of more
radio frequency-based applications, such as personal communications
services, multimedia messaging services, mobile intranet/extranet access,
and mobile internet access. In addition, the use of wireless services is
increasing in national defense, emergency rescue, air traffic safety, law
enforcement, and disaster relief efforts. Because there is little additional
spectrum to allocate, more efficient use must be made of the spectrum
already allocated in order to meet the increasing requests for radio spectrum
assignments.

      In an effort to advance the efficient and effective use of the available
radio frequency spectrum, in 1993 the NTIA mandated that all federal
spectrum users cut their frequency usage by one-half. This process, known
as narrowbanding, requires replacing all wideband land mobile radio network
infrastructure and radios with narrowband-compliant technology.

                                       4
Specifically, the NTIA required that the channel bandwidth used by federal
agencies be reduced from 25 to 12.5 kilohertz for very high frequency
operations by 2005 and by 2008 for ultra high frequency operations. 23

DOJ Legacy Wireless Communications Systems

      Law enforcement officers from DOJ, DHS, and Treasury require a
secure and reliable means of communication to perform their law
enforcement operations effectively and to ensure their safety and that of the
public. Federal law enforcement requires a range of communication tools,
from hand-held portable radios for internal communications to nationwide
and world-wide airborne communications.

       DOJ law enforcement officers require many different types of wireless
communications devices, including portable radios and body transmitters to
support criminal, counterterrorism, and counterintelligence investigations
and other law enforcement operations.24 Typically, DOJ law enforcement
operations cannot rely on traditional communications equipment such as
landline telephones. Therefore, wireless communications systems are critical
to most DOJ law enforcement operations. These wireless systems usually
provide the law enforcement officers’ sole means of connectivity to other
agents and supervisors. DOJ law enforcement officers primarily use land
mobile radio technology that relies on radio frequency signals for tactical
radio communications. 25

       As part of this review, DOJ components identified a total of 4,163
different land mobile radio communications system sites currently in use
within their components. The vast majority of these systems use technology
that is over 10 years old. Most of DOJ’s current communications devices
function in an analog rather than a digital mode, which means they have
limited functionality and diminished voice communications quality. The
following table describes the DOJ law enforcement components’ legacy


       23
          Very high frequency and ultra high frequency are internationally recognized
subdivisions of the electromagnetic spectrum. The very high frequency band is the range of
frequencies from 30 MHz to 300 MHz and the ultra high frequency band is the range of
frequencies from 300 MHz to 3000 MHz.
       24
          For the purpose of this report, the term “DOJ law enforcement officers” includes
FBI, DEA, and ATF Special Agents, Deputy Marshals, and other DOJ law enforcement
officers.
       25
          Land mobile radio is a mobile radio service operating between fixed base stations,
and stations (mobile and hand-held) capable of surface movement. Radio frequency is any
frequency within the electromagnetic spectrum.

                                             5
     wireless communications systems, their age, and the functional limitations of
     the systems.

                          DOJ COMPONENT LEGACY COMMUNICATIONS SYSTEMS

                                                                          Percent of
                                                                           Systems     Percent      Percent
                                 Average       Percent of                  Lacking        of           of
                    Number        Age of      Systems Not                   OTAR       Systems      Systems
                   of System     Systems      Narrowband     Frequency    Capability   Lacking      Obsolete
                                                                              27
   Component         Sites 26     (Years)      Compliant        Type                    AES 28         29

 Alcohol,
 Tobacco,                                                    Very High
                        466         10              0%                      100%         100%           0%
 Firearms, and                                               Frequency
 Explosives 30
 Drug
                                                             Ultra High
 Enforcement            640         13             76%                       24%         100%          71%
                                                             Frequency
 Administration
 Federal Bureau
                                                             Very High
 of                   3,057         12             91%                       95%          93%          84%
                                                             Frequency
 Investigation
 U.S. Marshals         Not          Not           Not           Not          Not           Not         Not
 Service 31         Applicable   Applicable    Applicable    Applicable   Applicable   Applicable   Applicable
  TOTAL               4,163                        79%                       85%          95%          73%
Source: Information derived from DOJ components


            26
               For the purpose of this audit, we are comparing the number of radio sites per
     reported system. Radio sites are typically the basic cost unit of a communications system.
            27
                A key is the code programmed into radios to allow encrypted communications
     within a system. To ensure security, these keys must be changed periodically. Over-the-air
     re-keying would allow a law enforcement officer to receive an updated encryption code
     rather than requiring manual reprogramming by a radio technician. OTAR capability is
     limited to the system capability. For example, even though individual radios may be OTAR
     capable, without the system being OTAR capable there is no OTAR functionality within the
     system.
            28
               The Advanced Encryption Standard (AES) is an encryption algorithm that was
     approved by the National Institute of Standards and Technology in November 2001 for use
     by U.S. Government organizations to protect sensitive information. This algorithm replaces
     the Data Encryption Standard (DES) that has been in use since 1977 and is no longer
     approved for Federal use.
            29
               For the purpose of this audit, “obsolete systems” are system sites that are no
     longer supported by the manufacturer.
            30
                  The DOJ OIG uses ATF’s systems for its radio communications.
            31
                The USMS primarily uses FBI’s systems for its radio communications. The USMS
     is in the process of installing a new radio system in the New York/New Jersey area.


                                                         6
       As shown in the table, 73 percent of the Department’s communications
system sites are no longer supported by the manufacturer and therefore are
“obsolete,” which means spare parts are difficult to find and maintenance is
essentially a customized service. According to the DOJ Deputy CIO for
Information Sharing, the failure rate for this older equipment is becoming a
reliability issue. In addition, 95 percent of the system sites do not meet
2002 federal Advanced Encryption Standards, and 85 percent of the system
sites cannot support over-the-air re-keying (OTAR) of encryption codes,
which means re-keying must be done manually.

      As shown in the table above, the DEA and FBI use the most radio
system sites and also have DOJ’s oldest systems. Further, because the
USMS relies on the FBI radio systems, all DOJ law enforcement operations
except ATF rely on radio communications technology that is over 10 years
old. This dated technology includes devices that function only on wideband
land mobile radio channels and do not provide adequate encryption security.
Due to the age and outdated technology of these systems, many DOJ law
enforcement officers are experiencing degraded coverage, reliability, and
usability in their tactical radio communications. 32 In addition, these
antiquated radio systems are “stove-piped” and provide limited federal-to-
federal and federal-to-state and local interoperability.

      Because the DEA’s radio systems operate on the ultra high frequency
band, which is not compatible with the very high frequency band,
interoperability between DEA radio systems and those of the ATF, FBI, and
USMS is more difficult, although not impossible to achieve. 33 As part of
implementation of the IWN program, the DEA is expected to transition to
very high frequency operations. However, until IWN is completed, the DEA
must purchase, operate, and maintain costly dual-band radios to allow
interoperability with other law enforcement organizations, including those in
the DOJ.

      Moreover, the older radios are large and obtrusive. We found that,
when combined with their limited functionality and decreasing reliability, the
size of current hand-held radios is such that agents are much less inclined to
use them. Several DOJ officials told us during the audit that because of
these factors, agents are sometimes using commercial communications
devices such as cellular telephones and walkie-talkies, which are vulnerable

       32
          Degradation is the reduction in the ability of a system to perform its intended
function. Usability describes the ease of operation with a minimum of user intervention.
       33
         A DEA official told us that their communications systems are ultra high frequency
because that spectrum was available when the DEA was established in 1972.


                                             7
to interception, for communicating with each other, instead of using agency
hand-held radios.

Origins of IWN

      In response to the 1993 NTIA mandate that all federal spectrum users
cut their frequency usage by one-half, DOJ law enforcement components
separately developed plans for replacing their land mobile radio systems. In
1998, however, in response to DOJ’s budget submission addressing the
components plans to comply with NTIA’s mandate, Congress directed that
any DOJ narrowband conversion initiative must be based on a
comprehensive strategy to increase spectrum efficiency, to achieve
communications interoperability among all DOJ components and other
federal law enforcement agencies, and to maximize efficiencies and savings
through shared infrastructure and common procurement strategies.

      As a result, in July 1998 Congress created the DOJ’s Narrowband
Communications Account to centrally fund the conversion of DOJ’s legacy
radio communications systems to narrowband systems. DOJ’s JMD was
directed to serve as the central purchasing agent for all DOJ communications
equipment and to develop an integrated, department-wide strategic plan to
meet the DOJ narrowband conversion and interoperability requirements. In
October 1998, the Attorney General created the Wireless Management Office
within JMD to oversee and direct DOJ’s consolidated approach to wireless
communications and to centrally manage the consolidated wireless account.

      The Wireless Management Office was directed to provide day-to-day
management of wireless communications’ architecture development and
planning, management, acquisition, financial planning, and technical services
for DOJ components. To ensure that components could influence the design
and capabilities of DOJ’s wireless systems, the Wireless Management Office
received guidance from the Wireless Communications Board, which was
chaired by the DOJ’s CIO and composed of senior managers from DOJ
components.

      Prior to FY 2002, DOJ and Treasury were independently pursuing
solutions to meet the NTIA narrowband mandate. Due to the similar and
complementary nature of the law enforcement missions and the co-location
and overlapping geographic jurisdictions of the two departments, DOJ and
Treasury officials began discussing a joint project in August 2001. 34


      34
         In 2001, DOJ law enforcement components included the DEA, FBI, Immigration
and Naturalization Service, and U.S. Marshals Service. Treasury law enforcement
components included the U.S. Secret Service, U.S. Customs Service, and ATF.

                                          8
      In November 2001, the DOJ Acting Assistant Attorney General for
Administration and Treasury’s Acting Assistant Secretary for Management
signed an MOU agreeing to improve communications operability between
and among their law enforcement agencies; improve communications
operability between DOJ and Treasury and state, local, and other federal law
enforcement agencies; achieve cost efficiencies; and meet the narrowband
mandate.

      The MOU established the IWN Joint Program Office to provide
day-to-day management of the IWN program. The Joint Program Office was
composed of staff from both DOJ and Treasury and received high-level
program guidance from the Integrated Wireless Network Executive Board
(IWN Executive Board), which was composed of executives from DOJ’s
Wireless Communications Board and Treasury’s Wireless Executive
Committee. The IWN Executive Board’s role was to ensure a coordinated
approach to IWN by DOJ and Treasury that would meet each department’s
requirements and provide a forum for resolving programmatic issues, such
as acquisition strategy, overall concept of operations, and security policies.

Seattle/Blaine Pilot Project

      In September 2001, prior to the DOJ and Treasury combining efforts,
the DOJ awarded a contract to CTA Communications, Inc., to identify and
define the wireless communications requirements for DOJ components,
convert the requirements to a recommended plan, and develop a design
concept for a consolidated approach to meet the wireless communications
needs of the DOJ. In November 2001, the scope of the contract was
expanded to include the requirements of Treasury’s law enforcement
bureaus. The contractor’s final report, the 2002 IWN design, recommended
a very high frequency, land mobile radio design that used “trunking,” a
computer-controlled system that automatically allocates an open frequency
from a pool of frequencies when a user initiates a radio call. The report also
recommended an aggressive implementation schedule beginning in January
2003 and ending in 2010.

      Based on the results of the 2002 IWN design, in November 2002 the
Joint Program Office awarded a contract to acquire the necessary hardware,
software, and services for a pilot project to demonstrate the feasibility of the
proposed technology. The pilot project, called the Seattle/Blaine Pilot
Project, was initiated in the metropolitan Seattle, Washington, area and
became fully operational in December 2004. Since the pilot project became



                                       9
operational, the Joint Program Office has initiated Seattle/Blaine Phase II
and the Northwest Expansion of the project. 35

       The pilot project created a trunked, interoperable network that
provides tactical wireless radio communications for over 600 federal users
from 5 federal agencies. The system is also interoperable with state and
local law enforcement organizations in the Seattle/Blaine area. The FBI
Telecommunications Manager in Seattle described the project as a series of
networked communications sites. He told us that as part of the
Seattle/Blaine Pilot Project, 17 radio sites were either built, purchased,
upgraded, or borrowed from state and local organizations. These sites
communicate with the individual users’ radios and with the prime site. The
prime site houses the computer hardware and software and circuit
connections that comprise the “brains” of the network.

      The communication system tracks users in the coverage area and
assigns the frequency most readily available to receive and transmit their
radio communications to the prime site. As a result, users do not have to
manually change radio channels as they move from one channel’s coverage
area to another. Users are organized into talk groups based on their
organization and functional requirements. Users in each talk group can
communicate with other members in the same group, and these users can
communicate with other talk groups by requesting and receiving permission
from other talk groups. The Joint Program Office funded the procurement of
IWN compatible hand-held and mobile radios for the agencies participating
in the Seattle/Blaine Pilot Project. Because this was a new communications
system, users were given training in the operation of the radios and the
protocols for interoperable communications.

       From its inception in November 2002 through September 2004, the
Seattle/Blaine Pilot Project cost approximately $32 million. According to the
Seattle/Blaine Beta Benchmark Assessment, the Seattle/Blaine Pilot Project
reduced the number of required radio frequency sites from 43 to 15 in the
Seattle/Blaine area, which resulted in estimated annual savings of $126,000
in site lease costs. 36 According to the assessment, the pilot project also
successfully demonstrated 66 percent more efficient use of spectrum
resources through the use of trunking technology, which in addition to

       35
           Seattle/Blaine Phase II includes coverage for aircraft operations and to fill in
existing coverage gaps. The Northwest Expansion is to provide coverage for Portland,
Oregon, the Oregon Coast, Eastern Washington, and the northern border.
       36
          The Seattle/Blaine Beta Benchmark Assessment, completed in May 2004, reported
the progress of the project toward achieving the overall goals of the IWN program.


                                               10
meeting federal narrowbanding requirements reduced the number of radio
frequency assignments from 331 to 114. Importantly, the pilot project
demonstrated the feasibility of a government owned, managed, and
operated integrated wireless network among five federal agencies and
proved the viability of the technology identified by the 2002 IWN design.

      The following table shows the federal components, number of users,
and level of system usage for the Seattle/Blaine Pilot Project from January
through September 2006.

                      SEATTLE/BLAINE PILOT PROJECT SYSTEM USAGE
                             January through September 2006

                                                                 Average       Total
                                                                  Number    Radio Calls
                            Component                            of Radios   Initiated
 Bureau of Alcohol, Tobacco, Firearms, and Explosives                 33.33         7,360
 U.S. Customs and Border Protection                                   19.44         3,952
 Drug Enforcement Administration                                      88.56        53,953
 Federal Bureau of Investigation                                     147.56        30,849
 Federal Communications Commission                                     0.11             9
 Immigration and Customs Enforcement                                 255.67        88,763
 Internal Revenue Service, Criminal Investigations                    15.33           707
 National Oceanic and Atmospheric Administration                       4.56         1,607
 Social Security Administration, Office of the Inspector General       3.78         5,741
 Treasury Inspector General for Tax Administration                     6.44           700
 U.S. Marshals Service                                                50.44        24,190
 U.S. Secret Service                                                   0.33            22
 Total                                                               625.55       217,853
Source: OIG Analysis of DOJ Wireless Management Office system usage data

       To assess the level of interoperability achieved by the Seattle/Blaine
Pilot Project, we asked the FBI Telecommunications Manager for the results
of interoperability tests of the Seattle/Blaine Pilot Project. This official told
us that FBI and DEA agents and USMS deputy marshals use interoperable
IWN talk groups on a regular basis for activities such as investigations,
surveillance, and intelligence gathering. 37 The pilot project also provides
interoperability between federal, state, and locals users. This functionality,
which is tested quarterly, was used in a full scale communications exercise
in September 2006 involving DOJ and DHS, Washington State Patrol, eight
local police departments, six local fire departments, three sheriffs’ offices,
three emergency management operations centers, two communications
centers, two public and one private emergency medical response
organizations, and one county public health department.

       37
          A talk group is a subgroup of radio users who share a common functional
responsibility. The Seattle/Blaine Pilot Project includes talk groups such as the FBI bomb
squad, ATF bomb squad, and Seattle Police Department bomb squad.

                                             11
      In addition, the FBI telecommunications official cited four arrests
between August and October 2006 in which federal and local agencies used
the interoperable talk groups to communicate in their investigations. One of
the joint arrests involved the FBI, DEA, Immigration and Customs
Enforcement, Seattle Police Department, and King County Sheriff’s Office.
In addition, the FBI official cited joint operations between the USMS and
King County Sheriff’s office and between ATF and the Seattle Police
Department that used IWN.

      Representatives from ATF, FBI, and USMS that we interviewed cited
the following benefits of the Seattle/Blaine IWN network compared to their
previous radio systems:

     •     Ease of use (no need to change channels when moving from one
           channel’s coverage area to another and capable of over-the-air
           re-keying)

     •     Increased officer safety due to increased radio usage and an
           emergency alert button on the hand-held radios that allows an
           officer to notify the dispatcher of an emergency situation by
           pressing the button

     •     Better coverage

     •     Improved clarity

     •     Interoperability with state and local agencies (no need to swap
           radios)

DEA representatives expressed the opinion that the Seattle/Blaine Pilot
Project was designed primarily for border, port, or major urban areas and
therefore does not provide adequate coverage for DEA operations.

      However, in April 2003 the DOJ Deputy CIO for Information Sharing
reported to the IWN Executive Board that while the IWN acquisition strategy
used for the Seattle/Blaine Pilot Project would adequately address current
communications requirements of the DOJ, DHS, and Treasury, it might not
be flexible enough to meet any change in requirements and to integrate new
technologies over the life of the procurement. In addition, the Deputy CIO
said that expanding the IWN project nationwide using the design and
acquisition process from the Seattle/Blaine Pilot Project would not have been
a good business decision because the DOJ had identified only one vendor
capable of meeting requirements of a contract to expand the Seattle/Blaine

                                     12
Pilot Project nationwide. He said that, without competition, cost savings and
technological advantages would have been minimized. Further, the
2002 IWN design did not include industry advances in wireless technology
and did not incorporate commercial services into the solution. Therefore, in
July 2004 the IWN Executive Board initiated the current acquisition strategy
to implement IWN on a nationwide basis. The Joint Program Office is in the
final phase of the acquisition and plans to award contracts to one or more
vendors in the second quarter of FY 2007.

Current Partnership with Treasury and Homeland Security

     After the September 11 terrorist attacks, the original impetus of
meeting the federal mandate to improve spectrum efficiency was
overshadowed by the need to develop a secure, wireless, interoperable
communications system for federal, state, and local law enforcement and
emergency personnel. However, the IWN project’s goals already included
improving communications interoperability among the participating
departments and state, local, and other federal law enforcement agencies.

      Yet, changes in the structure of federal law enforcement agencies after
the September 11 attacks required increased coordination among these
agencies in the development of IWN. When DHS was formed in 2002,
several law enforcement agencies from the Justice and Treasury
Departments were transferred to the new agency. The following chart
shows the DOJ, Treasury, and DHS components participating in IWN after
establishment of the DHS.




                                     13
                        THE IWN PARTNERSHIP AFTER CREATION OF DHS

                  DOJ                         Treasury                         DHS

 Bureau of Alcohol, Tobacco             Bureau of Engraving            Customs and Border
       and Firearms                        and Printing                    Protection

      Drug Enforcement              Internal Revenue Service –      Federal Law Enforcement
       Administration                 Criminal Investigations           Training Center
                                      The Treasury Inspector
                                                                    Immigration and Customs
  Federal Bureau of Prisons               General for Tax
                                                                         Enforcement
                                          Administration
       Federal Bureau of
                                              U.S. Mint                 U.S. Secret Service
         Investigations
          Office of the                Office of the Inspector       Transportation Security
       Inspector General                       General                   Administration
                                                                    Emergency Preparedness
    U.S. Marshals Service
                                                                        and Response

                                                                           Office of the
                                                                        Inspector General
      PRIOR TO MARCH 2003
 DOJ Agency

 Treasury Agency
 Other than DOJ or Treasury
 Agencies
 Comprised of DOJ and Treasury
 Agencies

Source:        OIG Analysis of the Joint Program Office FY 2005 Program Plan and Homeland
               Security Act of 2002

       When several DOJ and Treasury components were transferred to the
 DHS, the Joint Program Office continued to pursue a consolidated
 management approach to meet the communications requirements of those
 components transferring as well as the communications requirements of the
 components that remained with the DOJ and Treasury. This was consistent
 with the Office of Management and Budget’s expectation that the agencies
 transferring to the DHS would continue to participate in IWN on a
 cost-sharing basis.

       In June 2004, the DHS joined the DOJ and Treasury in the IWN
 partnership, and the three departments’ CIOs signed a new MOU to develop,
 implement, and manage a joint wireless system. 38 To provide
 executive-level guidance and policy direction for the Joint Program Office,
 the new MOU established the IWN Executive Board and designated the CIOs
 from each of the sponsoring departments as co-chairs. The MOU also

          38
          A copy of the MOU between the DOJ, Treasury, and DHS is included as
 Appendix 4.

                                                14
specified that decisions by the IWN Executive Board would be reached
through consensus among the three co-chairs.

       The MOU describes identical responsibilities for and resource
contributions from DOJ and DHS. Under the terms of the MOU, Treasury is
not required to share the costs of designing and building IWN, given its few
remaining law enforcement personnel after creation of the DHS, but it is
required to fund its specific equipment requirements and contribute to IWN
commensurate with its level of participation in the program. We were
advised by the DOJ Wireless Management Office Administrative Officer that
the DOJ Wireless Management Office has assumed the responsibility of
staffing and managing the Joint Program Office to allow the program to
move forward.

      In July 2004, the IWN Executive Board initiated a 3-phase acquisition
strategy to award a contract for:

       •      Reliable, secure, nationwide wireless communications
              capabilities;

       •      Enhanced interoperability, operational effectiveness, and support
              through increased coverage and capabilities;

       •      Simplified interoperability with other federal and non-federal
              wireless users through the consistent application of standards
              developed from this effort; and,

       •      Reduced capital and operational costs through economies of
              scale.

      The IWN Executive Board’s acquisition strategy envisioned selecting a
single contractor to implement the entire IWN program after completing the
following three phases.

       Phase 1, was based on information submitted by vendors regarding
       their high-level conceptual approach, organizational experience, and
       past performance. 39 Four vendors elected to continue in the
       acquisition process. Phase 1 was completed in December 2004.



       39
           Phase 1 was an acquisition process whereby an agency publishes a pre-solicitation
notice that provides a general description of the scope or purpose of the acquisition and
invites potential offerors to submit information that allows the government to advise the
offerors about their potential to be viable competitors.

                                            15
       Phase 2 was the evaluation of detailed technical, management, and
       cost proposals received from the four vendors to accomplish the entire
       IWN program. The evaluation resulted in the award of indefinite
       delivery/indefinite quantity contracts to two vendors to prepare and
       deliver a detailed system design for a specific geographic area, an
       implementation plan for that area, and a firm fixed price to accomplish
       the implementation. 40 In addition, the chosen contractors are
       required to submit a projected incremental design and implementation
       plan for the complete IWN deployment. Phase 2 was originally
       scheduled for completion in May 2005 but was not completed until
       June 2006.

       Phase 3 is to result in the selection of one or both contractors through
       a formal task order competition to implement the IWN program. The
       final contract was to be for network integration, including planning,
       design, build-out, deployment, operations, program management,
       interoperability, technology refreshment/change, training, and
       maintenance of IWN. Phase 3 currently is scheduled for completion in
       the second quarter of FY 2007.

      Representatives from DOJ law enforcement components told us they
were extremely concerned with the length of time it is taking to implement
IWN. The IWN project began in 2001 and the current acquisition strategy is
about 15 months behind schedule. As discussed in the next section of this
report, we found serious concerns regarding the funding of IWN, fractures in
the IWN partnership, and an ineffective governing structure for the program.
As a result, we concluded that the successful completion of the integrated
wireless network for the DOJ, DHS, and Treasury departments is in
jeopardy.

       The following table details key events of DOJ’s narrowband conversion
effort and the IWN project development, beginning with the creation of the
Wireless Management Office in 1998.




       40
           An indefinite delivery/indefinite quantity contract is a contract for supplies or
services that does not specify a firm quantity of supplies or services other than a minimum
or maximum quantity, and provides for the issuance of delivery or task orders during the
contract period.

                                             16
                            NARROWBAND CONVERSION KEY EVENTS AND
                          IWN DEVELOPMENT AND IMPLEMENTATION TIMELINE
                                        (By Fiscal Year)

 1998   DOJ Establishes        Wireless
        the Wireless           Management
        Management             Office Develops
        Office                 Justice Wireless
                               Network For Land
                               Mobile Radio And
                               Commercial
                               Wireless Services
 1999   Wireless
        Management
        Office Assesses
        Availability of
        Standards
        Compliant
        Technology

 2001   DOJ Issues             DOJ and the          DOJ Amends
        Contract for           Treasury             System Design
        System Design          Sign Memorandum      Contract to Include
        Concept                of Understanding     Requirements of
                                                    Treasury’s Law
                                                    Enforcement
                                                    Components
 2002   Contractor       DOJ and Treasury           DOJ and Treasury Joint Program           DHS Formed
        Completes System Initiate IWN               Establish the Joint Office Awards
        Design Concept                              Program Office      Seattle/Blaine Pilot
                                                                        Project Contract
 2003   Joint Program
        Office Initiates
        Seattle/Blaine Pilot
        Project
 2004   DOJ, DHS, and          IWN Executive        IWN Acquisition    Seattle/Blaine Pilot IWN Acquisition
        Treasury               Board Adopts New     Phase I Request    Project Becomes      Phase I Completed
        Sign Memorandum        3-Phase IWN          For Proposals      Operational
        of Understanding       Acquisition          Released
                               Strategy
 2005  IWN Acquisition         IWN Acquisition
       Phase II Request        Phase II Proposals
       For Proposals           Received From
       Released                Four Vendors
 2006 IWN Acquisition          IWN Acquisition
       Phase II                Phase III Task
       Completed With          Orders Awarded
       The Selection of
       Two Vendors
Source: OIG Analysis of Justice Management Division, Wireless Management Office IWN data.




                                                       17
        OIG AUDIT FINDING AND RECOMMENDATIONS


     SUCCESSFUL COMPLETION OF THE INTEGRATED
     WIRELESS NETWORK FOR THE DOJ, DHS, AND
     TREASURY DEPARTMENT IS IN JEOPARDY

           We found that the proposed $5 billion IWN program
           is at high risk of failing to develop an integrated
           wireless communications network for use by the
           DOJ, the DHS, and Treasury. The causes for this
           high risk include: (1) uncertain funding for the
           project; (2) disparate departmental funding
           mechanisms that allow departments to pursue
           separate wireless communications solutions apart
           from IWN; (3) the fractured nature of the IWN
           partnership; and (4) the lack of an effective
           governing structure. As a result, there is a potential
           risk to effective law enforcement operations and to
           the safety of officers and agents who are currently
           relying on independent, antiquated, and obsolete
           communications systems. Without a coordinated
           approach to accomplish the shared goals of the IWN
           project, the resulting separate agency
           communications systems may not be adequate in the
           event of another terrorist attack or natural disaster
           that requires a coordinated emergency response.

      The IWN program, a multi-agency wireless network intended to
provide secure, interoperable communications to over 81,000 federal agents
nationwide, is in significant jeopardy of failing. Implementation of the
project by the DOJ, DHS, and Treasury has been extremely slow, and
agreement among the departments regarding the design and
implementation of IWN must occur if the project is to continue.

       We found that, even though IWN is intended to be a joint project, the
DOJ and DHS are pursuing different approaches for implementing IWN.
DOJ’s preferred approach is to continue efforts to replace its legacy
communications systems for its law enforcement components with a single,
integrated wireless network. DHS’s preferred approach is to consolidate
existing wireless communications systems onto its planned departmental
communications system and achieve necessary interoperability through


                                     18
gateways rather than building a single wireless network. 41 The
communication systems that result from these different approaches will not
result in the seamless interoperable system that was originally envisioned.

      We also found that the lengthy IWN development and implementation
process that began in 2001 has left DOJ components waiting for upgraded
communications equipment. DOJ components still conduct their law
enforcement and counterterrorism operations with aging equipment that
does not meet current encryption standards. As a result of the amount of
time it has taken to move forward with IWN, the DOJ has also spent
increasingly significant amounts of money to maintain its legacy
communications systems, thereby depleting available funding for IWN.

       In addition, the lengthy IWN development and implementation
presents security-related concerns. During our audit, we were told that
some law enforcement officers and agents occasionally resort to nonsecure
forms of wireless communications, such as cellular telephones and walkie-
talkie devices, when their DOJ radio equipment or communications system
are inadequate to accomplish their mission. We were also told that some
agents have had to interrupt surveillance operations in order to manually
reprogram their radios with updated encryption keys.

       The following sections of the report discuss the causes for IWN’s high
risk status, identifies the potential consequences if IWN is not implemented,
and provides recommendations to help redirect the effort toward successful
completion.

Wireless Communication Funding Concerns

      Two funding issues increase the IWN program’s risk of failure. First,
there is substantial uncertainty that the program will be adequately funded.
Second, disparate funding mechanisms within the participating departments
allow the DHS to upgrade, repair, or replace its components’ legacy
communication systems individually, while the DOJ operates under a
mandate from Congress to develop a department-wide solution. In our
judgment, this fundamental disparity in commitment of funds by the
sponsoring departments has facilitated the breakdown of the IWN
partnership. Adequate funding and departmental coordination and
concentration of resources on IWN are necessary to ensure the program’s
success.



       41
          A gateway is a hardware and software-driven interface that will interpret control
protocol of different radio systems and allow them to be compatible with the network.

                                             19
Uncertain Funding

       IWN is currently one of the most expensive items in the Department’s
Information Technology Investment Portfolio. The DOJ life cycle costs for
IWN through 2021 are projected to exceed $2.5 billion. 42 During our audit,
the DOJ CIO told us that without a major increase in funding the IWN
program will not be completed. The DOJ Deputy CIO for Information
Sharing told us that if IWN is not implemented, DOJ will still need to invest
about $900 million to replace legacy communications equipment, such as
mobile and hand-held radios, repeaters, and base stations that IWN was
intended to upgrade. The DOJ CIO also noted that while replacing legacy
equipment with new equipment would solve encryption problems and resolve
the narrowband issue, it would not fully address the problem of “stove-pipe”
communications among DOJ components and would only marginally address
interoperability. In our judgment, if IWN is not implemented DOJ will miss a
critical opportunity to provide more effective communications support to its
law enforcement agents in the field.

    The following chart shows DOJ funding for the Narrowband
Communications Account from FY 2000 to the present.




       42
         Life cycle costs are the estimated costs associated with program planning, project
implementation, and the operation and maintenance of legacy and IWN communications
systems over a 15 year period.

       Under the current IWN partnership MOU, DOJ and DHS equally share the design and
implementation costs of IWN. Assuming the cost-sharing arrangement continues as the
program goes forward, DOJ’s share of the estimated $5 billion in life cycle costs through
2021 is $2.5 billion.

                                            20
                NARROWBAND COMMUNICATIONS ACCOUNT BUDGET SUMMARY
                                  FY 2000 – 2008
 $350,000,000




 $300,000,000




 $250,000,000




 $200,000,000




 $150,000,000




 $100,000,000




  $50,000,000




          $0
                2000   2001    2002     2003        2004    2005     2006     2007    2008

                       Wireless Management Office Request    Enacted Appropriations

Source: OIG analysis of Justice Management Division, Wireless Management Office and
        Budget Staff budget data

      Through FY 2006, approximately $772 million has been appropriated
to fund the DOJ Narrowband Communications Account. However, since
FY 2000, the enacted appropriation for IWN has been consistently less than
the DOJ Wireless Management Office budget request. For FY 2007 and
FY 2008, the DOJ Wireless Management Office request has increased in
anticipation of the IWN contract awards. DOJ officials told us, however, that
they expect to receive approximately 50 percent of their requested funding.
The DOJ CIO told us that the current level of IWN funding is not sufficient to
implement IWN nationwide.

      Moreover, the DHS Wireless Management Office Director told us in
March 2006 that DHS officials do not believe funding will be available for
DHS and DOJ to implement the new nationwide replacement system using
the same design demonstrated by the Seattle/Blaine Pilot Project.

      We asked for an estimate of the total amount of IWN project costs
from the DOJ Wireless Management Office Administrative Officer. Although
the DOJ Wireless Management Office has assumed the responsibility for

                                               21
managing the Joint Program Office, we were advised by the DOJ Wireless
Management Office Administrative Officer that an estimate of total IWN
project costs is not available because DHS costs are not reported to the Joint
Program Office. We also requested this information from DHS in April 2006
and again in October 2006, but DHS did not provide this data. As a result,
the following chart illustrates only the costs incurred by DOJ, through
September 30, 2005, for IWN-related projects and equipment, and for
operation and maintenance of existing DOJ legacy communication systems.

               DOJ NARROWBAND COMMUNICATIONS ACCOUNT BY PROJECT 43             T




                                FY 2000 - FY 2006
   $180,000,000




   $160,000,000




   $140,000,000




   $120,000,000




   $100,000,000




    $80,000,000




    $60,000,000




    $40,000,000




    $20,000,000




              $0
                    2000     2001      2002        2003     2004   2005            2006
                                              FISCAL YEAR

           Legacy Operations & Maintenance                          Acquisition
           Seattle/Blaine & NW Expansion                            Subscribers
           DOJ Program Costs                                        Other




      Source: OIG analysis of Justice Management Division, Wireless Management Office
              cost data

      As the graph demonstrates, over the past 7 years almost two-thirds of
the money in the DOJ’s Narrowband Communications Account has funded
the maintenance of existing legacy systems instead of new wireless
solutions. Since the inception of the Narrowband Communications Account
in FY 2000, the cost of operating and maintaining legacy communications
has been between 38 percent and 80 percent of the total program costs for
a single fiscal year. In FY 2004, legacy costs accounted for $52.5 million of
the total program cost of $137.6 million, while in FY 2001 legacy costs
      43
           The cost data contained in this chart was not audited by the OIG.

                                              22
accounted for $89.2 million of the total program cost of $111.5 million.
According to estimates from the Wireless Management Office, operating and
maintenance costs for legacy systems are expected to increase by 5 percent
annually. At that rate, by FY 2008 legacy systems operations and
maintenance costs will consume 72 percent of the Narrowband
Communications Account at the current funding level.

Disparate Departmental Funding Mechanisms

      Funding for all DOJ legacy land mobile radio systems, including IWN, is
consolidated within the Narrowband Communications Account managed by
the DOJ’s Wireless Management Office. Because DOJ’s wireless
communications budget is consolidated, the Wireless Management Office is
responsible for funding the components’ legacy radio systems operations
and maintenance needs. The Narrowband Communications Account’s
appropriation language directs that no DOJ component can develop or
procure additional radio equipment or infrastructure without prior approval
from JMD. Consequently, DOJ components receive funding to operate and
maintain their legacy communications systems through reimbursable
agreements with the Wireless Management Office.

      The DOJ Deputy CIO for Information Sharing told us that if a DOJ
component needs to replace legacy equipment, it must request funding
approval from the Wireless Management Office. This official said that
components are required to demonstrate the imminent failure of a particular
system to receive funding to upgrade or replace existing legacy equipment
and infrastructure. He said that any remaining funding after individual
component legacy communications operations and maintenance needs are
met is allocated to IWN-related investments.

     An example of this approval process occurred in 2004 when the FBI
requested replacement of its Las Vegas, Nevada, field office radio system.
Because the FBI demonstrated that the system was failing, the Wireless
Management Office approved and funded replacement of the old legacy
system. The new system is a very high frequency, narrowband compliant
system that meets the Advanced Encryption Standard.

      According to the DOJ CIO, while the DHS supports IWN, the DHS has
not always lived up to its commitments to the IWN project, in part because
DHS components receive independent funding for their wireless
communications needs. The DOJ CIO stated that this makes it more difficult
for the DOJ to obtain cooperation and compliance because narrowband
conversion funds are not centrally managed and distributed by DHS, as is
the case in the DOJ. At a May 2006 Department Investment Technology

                                     23
Review Board meeting, the Deputy Attorney General expressed concern that
this disparate funding structure is encouraging inefficiencies and resulting in
a lost opportunity to create a truly integrated network. 44

       The DHS CIO told us that DHS appropriations are not structured the
same as DOJ’s and that DHS has separate funding for IWN and for its legacy
communications systems. In the joint FY 2006 Office of Management and
Budget Capital Asset Plan and Business Case (Exhibit 300), DHS reported its
intent to consolidate narrowband conversion funding within DHS in a manner
similar to the funding approach used by DOJ. 45 However, in contrast to this
document, in October 2006 the DHS CIO told us that DHS does not intend to
consolidate narrowband funding of DHS components into a central account.
Consequently, the DHS CIO can continue to allocate narrowband conversion
resources to individual components, programs, or geographic locations that
he believes are in the best interest of the DHS. This allows the DHS CIO to
meet the immediate needs of DHS components’ by replacing and upgrading
their legacy communications systems while still participating in IWN. DOJ, in
contrast, is required to develop an integrated department-wide solution
because of the congressional requirement that all wireless communications
spending be consolidated and managed by a central office.

Fracture in the IWN Partnership

       Our audit also found strong indications that the IWN partnership is
fractured. It appears that the DOJ and DHS are pursuing separate wireless
communications solutions instead of a single joint solution. The current
MOU between DOJ, DHS and Treasury requires the departments to
collaborate annually on a joint budget submission to request funding for the
IWN program. For FYs 2005 through 2007, the departments collaborated on
and submitted joint Office of Management and Budget Exhibit 300s.
However, for FY 2008, DOJ and DHS submitted separate Office of
Management and Budget Exhibit 300s for IWN. In our judgment, such a
significant departure from the current MOU calls into question the nature of
the IWN partnership.


      44
         The Department Investment Technology Review Board is charged with overseeing
the Department’s IT investment management program by monitoring the selection and
performance of IT investments that are high profile, high cost, and/or high risk.
      45
           The Office of Management and Budget requires agencies to submit Exhibit 300s
for major information technology investments as part of its budget justification and
reporting process. The Exhibit 300 demonstrates compliance with capital programming and
planning and investment control policies and justifies new or continued funding for major
acquisitions. The Office of Management and Budget uses the Exhibit 300 to make decisions
about budgetary resources and to assess agencies’ programming processes.

                                           24
      We were advised by the DOJ and DHS CIOs that the current
partnership MOU needs to be revised and that the departments are currently
in the process of re-negotiating this critical document. Senior DOJ officials
have told us that DOJ is looking for a master agreement with annual
program plans that detail the specifics of IWN implementation for the
immediate year and the responsibilities and contributions expected from
each department. The DHS CIO told us that DHS will insist on contracting
authority on IWN contracts, which would allow DHS to independently write
task and delivery orders against IWN contracts once they are awarded.
According to the DHS CIO, without contracting authority for DHS the MOU is
a “no go.”

      In March 2006, the DHS Wireless Management Office Director stated
that DOJ appears focused on using trunking technology in a single,
nationwide solution. 46 However, he said that DHS wants to use the IWN
contract or contracts to acquire the necessary supplies and services to
implement individual solutions for its priority geographic locations rather
than a single, integrated wireless communications solution. In our opinion,
this shows DHS’s pursuit of individual solutions rather than a single
integrated wireless communications solution.

       In October 2006, the DHS CIO told us that DHS is fully committed to
the IWN program and has demonstrated its commitment by contributing
staffing and funding resources. 47 The DHS CIO also told us that DHS is
consolidating its existing networks into a primary communications
infrastructure called OneNet, similar to the DOJ’s JUTNet, and expects all
DHS networks to be operating on OneNet within a year. 48

      However, in addition to the separate Office of Management and Budget
Exhibit 300 submissions and the ongoing MOU negotiations, recent decisions
made by the DHS provide further indications that the partnership is
fractured. For example, in March 2006 the DHS CIO decided to relocate

       46
           As previously defined, trunking is a computer-controlled system that uses all the
available frequencies in a pool, automatically allocating an open frequency each time
someone on the system initiates a radio call. Although trunking technology provides greater
spectrum efficiency and functionality, this technology costs significantly more than
conventional technology.
       47
         As we explain later, there has been significant turnover in the DHS CIO position
during IWN’s development.
       48
          OneNet is a planned communications network intended to consolidate DHS
components’ sensitive but unclassified data networks. JUTNet is a planned single, secure
network that will handle classified and sensitive but unclassified material and will replace
the DOJ’s current Justice Consolidated Network.

                                              25
most of the DHS staff assigned to the Joint Program Office to DHS
Headquarters. The DHS CIO told us that the decision was an internal
business decision and was reached for economic and organizational
efficiency reasons. This official stated that the relocated staff were still
assigned to the Joint Program Office, but just were working from a different
location. The DHS Wireless Management Office Director expressed the
opinion that a joint program office, as it currently exists, probably will not be
needed. Instead, he suggested that the relevant agencies create joint teams
at the project level, either physically or virtually. In our view, these actions
are consistent with DHS’s preferred approach of implementing unique
solutions in specific locations rather than furthering the development of a
joint, nationwide project with DOJ and Treasury.

       We also discussed the DHS’s participation in the IWN project with the
DOJ Deputy CIO for Information Sharing, who told us that the DOJ had been
the only major player actively participating in the project for a considerable
period of time. He stated that prior to the creation of DHS, Treasury had
been a major participant, but its involvement in the project has since been
minimized as a result of the reorganization that resulted in its loss of most of
its law enforcement components. The DOJ Deputy CIO stated that after
allowing the DHS time to organize itself after its creation, DOJ was hoping
that the DHS would assume its responsibilities outlined in the current MOU
and fully share responsibility for the project with DOJ. However, the DOJ
CIO stated that DHS has never participated at the level DOJ expected.

      The DOJ Deputy CIO for Information Sharing told us that,
nevertheless, DOJ is pursuing a single, integrated solution for IWN. He
stated that if DOJ cannot build IWN with the DHS, at least it can develop an
integrated network for DOJ. The Deputy CIO also told us that if the DHS
uses the IWN contracts only as procurement vehicles, at least there would
be some commonality in equipment, services, and vendors between the
departments’ individual solutions.

      The IWN partnership currently appears to be fractured in its approach
and disjointed in its goals to develop a secure, wireless, nationwide
communication network. We believe that, as result, the system that results
from this partnership likely will not be the seamless, interoperable system
that was originally envisioned and therefore the communication systems
may not be adequate in the event of another terrorist attack or national
disaster.




                                       26
Lack of Effective Governing Structure

       We also found that the IWN Executive Board does not have an
effective governing structure.

Decision by Consensus

      The June 2004 MOU assigns the governance of the IWN project to the
IWN Executive Board. The IWN Executive Board is composed of the CIOs
from DOJ, DHS, and Treasury. The IWN Executive Board has the authority
to review and approve all key business and policy issues related to the
implementation and management of the IWN program, including budgets,
system deployment priorities, and program management issues such as
acquisition strategy, overall concepts of operation, and security policies. The
IWN Executive Board is also responsible for overseeing and evaluating the
program management activities of the Joint Program Office. The MOU
requires that decisions by the IWN Executive Board be made by consensus.

       However, the MOU does not provide a process to move forward in the
absence of consensus. As the DOJ Deputy CIO for Information Sharing told
us, “if DOJ and DHS do not agree, IWN does not go forward.” This is of
particular concern because, according to the DOJ Deputy CIO, repeated
turnover of key DHS personnel has resulted in time consuming efforts on
DOJ’s part to re-examine previous decisions with new DHS officials to again
reach consensus.

       Since the formation of the current IWN partnership in June 2004, DHS
has had three Wireless Management Office Directors, and as of
October 3, 2006, the position was vacant. We were told that during this
same period DHS has had two CIOs and one acting CIO. Furthermore,
language in the DHS’s FY 2007 appropriations law established the Office of
Emergency Communications and transferred IWN responsibilities to that
office. Up to this point, IWN administration has been the DHS CIO’s
responsibility, and we are concerned that DOJ will again be faced with the
need to revisit previous decisions with new DHS personnel.

Lack of DOJ Component Representation

      DOJ radio program managers and senior managers from four DOJ
components – the ATF, DEA, FBI, and USMS – expressed concern that
although their IWN-related issues are considered by the DOJ CIO, the
components are not able to influence IWN Executive Board decisions.



                                      27
      Two of the senior managers told us that their questions and concerns
about the IWN project have gone unanswered by the IWN Executive Board.
DOJ radio program managers from all four components expressed concern
regarding the lack of incorporation of component concerns in decisions
related to IWN. For example, all four radio program managers told us that
the components’ preferred plan was to implement IWN in the Southeastern
United States after the Seattle/Blaine Pilot Project was completed. However,
in November 2004 the Joint Program Office began requirements analysis for
the Southwest Border area and subsequently issued a request for design
proposals for the Southwest Border area instead of the Southeastern area.
Three of the four DOJ radio program managers attributed this change in the
implementation plan to “an attempt to meet” DHS requirements.

      In our interviews, the radio program managers and senior managers
from DOJ components expressed many concerns with the current IWN
project, which we summarize in the following tables.

                  DOJ RADIO PROGRAM MANAGERS’ IWN-RELATED CONCERNS

                          CONCERN                   ATF   DEA   FBI   USMS
 IWN partnership                                      X    X     X      X
 Disparate component funding                          X    X     X      X
 IWN program delays                                   X    X     X      X
 Changing requirements                                     X     X      X
 Changing implementation plans                        X    X     X      X
 Duplication of effort                                X    X     X      X
 Time consuming acquisition process                   X    X     X      X
 Loss of focus on tactical communications             X    X     X      X
 Deviation from system design concept                 X    X     X      X
 Security of commercial solution                      X    X     X      X
 Adequacy of legacy communication systems             X    X     X      X
 Dangerous “work arounds”                                  X     X      X
Source: OIG Interviews with DOJ radio program managers


                   DOJ SENIOR MANAGERS’ IWN-RELATED CONCERNS

                    CONCERN                        ATF    DEA   FBI   USMS
 IWN partnership                                    X      X     X      X
 Disparate component funding                               X     X      X
 IWN program delays                                 X      X     X      X
 Availability of IWN funding                        X      X     X
 Acquisition process increasing IWN costs           X      X     X
 Loss of focus on tactical communications                  X     X     X
 Security of commercial solution                           X     X
 Adequacy of legacy communication systems                  X     X     X
 Dangerous “work arounds”                                  X     X
Source: OIG interviews with DOJ senior managers



                                         28
      Senior managers from the ATF, DEA, FBI, and USMS all expressed
concern about IWN program delays. Three of the four senior managers
shared the same concerns that were expressed by the radio program
managers regarding the nature of the IWN partnership, the loss of focus on
tactical communications, and the adequacy of legacy communications
systems. Senior managers from the ATF, DEA, and FBI also expressed
concern regarding the availability of sufficient funding to complete the IWN
project.

      The DOJ Deputy CIO for Information Sharing told us that the
component representatives regularly telephone, e-mail, or meet with the
DOJ CIO to discuss their IWN-related concerns. DOJ component
representatives also described this process as their method for raising
IWN-related concerns to the IWN Executive Board. However, as
demonstrated by the consistency and critical nature of the concerns
summarized in the preceding tables, the concerns of the components have
not been addressed by the IWN Executive Board.

       In our judgment, the ultimate beneficiaries of IWN do not have an
effective method to contribute to the design and execution of the program.
Further, due to their inability to participate in the development and
implementation of the IWN, DOJ components are losing confidence in the
program.

Consequences of IWN Project Failure

      Failure to upgrade DOJ components’ antiquated communications
systems with or without IWN would represent an unnecessary risk to the
safety of DOJ law enforcement officers and agents. Further, failure of the
IWN project will represent a significant missed opportunity to achieve
needed communications interoperability between federal law enforcement
agencies, and cost and spectrum efficiencies. In addition, because the DOJ
plans to address its narrowband requirements with IWN, failure of the joint
program will require the DOJ to seek alternative solutions such as a
department-wide communications network or a network developed by DOJ
and Treasury.

Unacceptable Risk to Safety of Department of Justice Law Enforcement
Officers and Agents

       It is critically important that law enforcement officers and agents have
a reliable, safe, and efficient way to communicate. Law enforcement agents
must be able to maintain flexibility and mobility, and at times operate
covertly, yet still remain in contact with other personnel essential to the

                                      29
operation. Wireless communications systems are a critical part of most law
enforcement operations, and usually provide the sole means of
communications connectivity for the overall operation.

      DOJ has been relying on IWN to address a myriad of problems with its
current wireless communications systems. As discussed above, at present
the DOJ has multiple stove-piped land mobile radio systems with
infrastructure dating back 15 to 20 years. The performance of the systems
has degraded in terms of coverage, reliability, and usability. The systems
provide limited federal-to-federal and federal-to-state/local interoperability,
do not use radio spectrum efficiently, and require extensive operations and
maintenance funds.

       The vast majority of DOJ legacy systems are comprised of technology
that is over 10 years old and, as shown in the table below, 31 percent of
DOJ’s legacy systems are over 15 years old. As a result, devices function
only on wideband land mobile radio channels that are no longer compliant
with NTIA policy, or only with a Digital Encryption Standard algorithm that is
no longer supported by the National Institute of Standards and Technology
and is recognized as “weak” security. We were also told that the current
encryption standard used by the majority of DOJ’s legacy systems is
vulnerable to amateur hacking attempts and that communications may be
intercepted by unauthorized parties, thereby jeopardizing operations.
Further, most of DOJ’s current devices function in an analog versus digital
mode, which means they have limited functionality and diminished voice
communications quality. The following table lists the DOJ components’
legacy communications systems by age.




                                      30
                 AGE OF DOJ COMPONENT LEGACY LAND MOBILE RADIOS SYSTEMS
                                   As of September 2006

                            Number               Number              Number              Number
                                of                  of                  of                  of
                 Number     Systems              Systems             Systems             System
                    of       1 to 10             11 to 14            15 to 19              s 20
                 System      Years                Years     Percen    Years     Percen    Years     Percen
                       49
  Component      Sites         Old     Percent     Old         t       Old         t     or Older      t
Alcohol,
Tobacco,
                 466        466        100%       0         0%        0         0%        0           0%
Firearms, and
Explosives
Drug
Enforcement      640        139        22%       250        39%      221        34%       30          5%
Administration
Federal
Bureau of        3,057      792        26%       1,236      40%      1,029      34%       0           0%
Investigation
 TOTAL           4,163      1,397      33%       1,486      36%      1,250      30%       30          1%

 Source: OIG Analysis of Component Radio System Data

       Another effect of DOJ’s current outdated land mobile radio systems is
 that most DOJ systems cannot support over-the-air re-keying of encryption
 codes, which means re-keying must be done manually. Also, most systems
 and devices are not compatible with the interoperability standard for over-
 the-air interface, which means that the units can function only with similar
 equipment. This limits (but does not eliminate) the options for
 interoperability among DOJ systems, as well as between DOJ systems and
 other law enforcement and homeland security personnel.

       For example, the Department’s components have been able to
 establish some measure of interoperability among themselves and with state
 and local law enforcement organizations in specific law enforcement
 operations by using the current antiquated systems. But the process is not
 seamless and requires significant planning. During the Washington, D.C.,
 area sniper shootings in 2002, federal, state, and local law enforcement
 agencies needed to communicate in order to respond and relocate quickly.
 This required interoperability between communications systems operating in
 several different frequency bands, and adherence to the federal requirement
 that radios be programmed with encryption keys.

      In order to achieve interoperability for this operation, special
 equipment was added to the participating law enforcement agencies’
 systems to receive broadcasts from the originating systems and rebroadcast
 the message to the other law enforcement systems. Because these

          49
           For the purpose of this audit, we are comparing the number of radio sites per
 reported system. Radio sites are typically the basic cost unit of a communications system.

                                                      31
broadcasts were not encrypted, all law enforcement agencies could receive
the communication. The drawbacks to this method were that non-law
enforcement personnel were also able to receive the broadcast and the time
required to plan and install the equipment.

       In some cases, existing communications equipment used by DOJ
components is no longer supported by the manufacturer, which means spare
parts are difficult to find and maintenance is essentially a “custom service.”
This is an important issue because according to the DOJ Deputy CIO for
Information Sharing, the decreasing reliability of this older equipment is a
contributing factor to agents’ use of commercial devices instead of radios.

     As shown in the table below, 73 percent of the Department’s
4,163 radio system sites are no longer supported by the manufacturer.

                             OBSOLETE DOJ COMPONENT LEGACY
                             LAND MOBILE RADIO SYSTEM SITES 50
                                    As of September 2006

                                            Percent        Still       Percent
               Component       Obsolete     Obsolete     Supported    Supported
             Alcohol,
             Tobacco,
                                      0         0%            466        100%
             Firearms, and
             Explosives
             Drug
             Enforcement            454        71%            186         29%
             Administration
             Federal Bureau
                                  2,568        84%            489         16%
             of Investigation
               TOTAL              3,022        73%          1,141         27%
            Source: OIG Analysis of Component Radio System Data

      Another drawback to the current radio equipment is its size – older
radios are large and obtrusive. When combined with the limited functionality
and decreasing reliability, the size of current hand-held radios is such that
agents are much less inclined to use them. Several DOJ officials told us that
agents are sometimes using commercial cellular telephones and
walkie-talkies that are vulnerable to interception in lieu of hand-held radios.
In our judgment, this represents a serious risk to agents and Department
law enforcement operations.




       50
          For the purpose of this audit, we are comparing the number of radio sites per
reported system. Radio sites are typically the basic cost unit of a communications system.

                                             32
Cost Efficiency

      When the Narrowband Communications Account was created in 1998,
one of the primary concerns expressed in the appropriations language was
the need to increase efficiency and savings through shared infrastructure
and common procurement strategies. The 2002 IWN cost model estimated
approximately $1.19 billion in additional investment costs if the departments
do not collaborate and instead developed their own tactical communications
solutions.

      The DOJ CIO stated that from a cost perspective, he believes the 2002
IWN cost model estimate of increased costs to build separate systems is not
unreasonable. However, in May 2006 the DOJ CIO identified a risk of
funding falling substantially short of what is necessary to implement IWN.
The mitigation strategies subsequently identified by the DOJ include looking
for lower cost alternatives, reducing reliability and security features of the
proposed solutions, and providing IWN coverage to only high-priority areas.

      If DOJ, DHS, and Treasury do not collaborate on a joint IWN solution,
the government could miss the opportunity to save over $1 billion through
shared infrastructure, common procurement strategies, and consolidation of
redundant information technology investments.

Narrowband Requirement

       As noted earlier, as new wireless technologies and applications have
developed, the demand for spectrum-based services has increased and
efficient use of the radio frequency spectrum has become critical. Therefore,
under instruction from Congress in October 1993 to manage the radio
frequency spectrum more efficiently, the NTIA mandated that land mobile
radio systems operating at very high frequencies and ultra high frequencies
convert to narrowband channel bandwidth communications systems by
January 1, 2005, and January 1, 2008, respectively.

      By 2004, several federal agencies were advising the NTIA that they
would not be able to meet the January 1, 2005, deadline for converting their
very high frequencies to narrowband operations. DOJ was one of the
departments that reported it would not meet the deadline, citing the lack of
suitable equipment and encryption capability as part of the reason for its
non-compliance.

      As shown in the following table, DOJ is one of the largest users of the
very high frequency radio spectrum, with more than 14,000 frequency
assignments. As of November 2005, approximately 70 percent of the radio

                                      33
frequencies assigned to DOJ were used for tactical communications support,
which is critical to agent safety and operational effectiveness. The following
table shows federal agency rate of compliance with the narrowband
mandate.

    NARROWBAND COMPLIANCE FOR AGENCIES WITH GREATER THAN 1,000 VERY HIGH
                          FREQUENCY LICENSES 51
                            As of April 18, 2006

                                                                     Percent
                                                                   Narrowband
                            Agency                 Licenses         Compliant
            Department of Justice                        14,617              22%
            Department of the Interior                    9,983              80%
            Department of Homeland Security               9,360              32%
            Department of Agriculture                     8,927              86%
            Federal Aviation Administration               4,623              37%
            Department of Commerce                        4,263              42%
            U.S. Army                                     2,224              76%
            Department of Energy                          2,216              43%
            Non-Member Agencies                           1,585              64%
            U.S. Air Force                                1,282              92%
            U.S. Coast Guard                              1,152              59%
            Department of the Treasury                    1,131              85%
           Source: OIG analysis of National Telecommunications and Information
                    Administration data

      As the table shows, the DOJ had the lowest narrowband compliance
rate, at 22 percent, among the dozen agencies with at least 1,000 very high
frequency licenses. According to the DOJ CIO and Deputy CIO for
Information Sharing, because the DOJ is relying on IWN to replace the
components’ noncompliant legacy radio systems, DOJ’s narrowband
compliance rate will not improve unless the DOJ receives additional funding
for the IWN conversion.

      The Chief of the Spectrum Support Division of the Office of the
Spectrum Management at NTIA told us that for calendar years 2005 and
2006, agencies that had not met the narrowband requirement were allowed
to request waivers to continue protected wideband operations on the
frequencies subject to the NTIA mandate. The Chief of the Spectrum
Support Division said that during the past 2 years NTIA had received and
granted tens of thousands of waiver requests. 52



      51
           See Appendix 5 for agency licenses and rate of compliance.
      52
           See Appendix 6 for the waivers granted in 2005 and 2006.

                                            34
                    WAIVERS GRANTED BY NTIA TO IWN PARTNERS
                      DURING CALENDAR YEARS 2005 AND 2006

        14,000     12,378
        12,000                 11,178
        10,000

         8,000
                                                                        2005
         6,000                                  5,173                   2006
         4,000
                                  2,259
         2,000
                                                        2    0
             0
                     DOJ                DHS          Treasury

         Source: OIG analysis of National Telecommunications and Information
                 Administration data

       However, in September 2006, NTIA’s Frequency Assignment
Subcommittee approved a change to the NTIA Manual that eliminates the
waiver provision and directs the Subcommittee to adjudicate only unresolved
conflicts between agencies involving overlapping narrowband and wideband
operations.

       On October 11, 2006, DOJ submitted a waiver request for the
69 percent of its frequency assignments that have not been converted to
narrowband. The NTIA Subcommittee rejected DOJ’s waiver request. As a
result, beginning January 1, 2007, DOJ will be operating on a non-
interference basis on 10,129 frequency assignments. This means that DOJ
law enforcement communications on those frequency assignments may be
subject to interference from narrowband communications of other agencies
and that DOJ will have no basis to request the interfering operation to stop.
Further, if DOJ wideband operations interfere with other users’ narrowband
operations, DOJ could be required to cease operating on the frequency.

      We discussed DOJ’s ability to change frequencies in such an event with
the DOJ Spectrum Manager. She said that the DOJ could not change
frequencies without buying new equipment. The DOJ Spectrum Manager
told us that the DOJ would continue to ask for waivers until the IWN
acquisition process is completed and adequate funding and technological
advances in equipment allow IWN to be implemented across the country.

                                          35
The DOJ Spectrum Manager also stated that as a result of the NTIA
Subcommittee’s action, DOJ is elevating its request for waivers to the
Department of Commerce’s Acting Assistant Secretary of Commerce for
Communications and Information.

      The DOJ’s failure to meet the NTIA narrowband mandate, coupled with
NTIA’s recent denial of the DOJ’s request to keep operating on the non-
narrowband frequencies means that DOJ law enforcement communications
could be subject to interference from the narrowband operations of other
agencies. Further, if DOJ’s wideband operations interfere on the narrowband
operations of other agencies, DOJ could be required to cease operations on
those frequency assignments. Under either of these circumstances, DOJ law
enforcement operations could be compromised due to the inability to
communicate effectively and the potential for garbled, incomprehensible, or
incomplete transmissions.

Interoperability

      The initial IWN design that was the basis for the Seattle/Blaine Pilot
Project addressed interoperability by planning for gateways that would allow
IWN users to communicate with state and local public safety communication
systems. According to The National Commission on Terrorist Attacks upon
the United States (9/11 Commission):

       The inability to communicate was a critical element at the World
       Trade Center, Pentagon, and Somerset County, Pennsylvania,
       crash sites, where multiple agencies and multiple jurisdictions
       responded. The occurrence of this problem at three very
       different sites is strong evidence that compatible and adequate
       communications among public safety organizations at the local,
       state, and federal levels remains an important problem. 53

We asked the IWN Executive Board representatives about IWN’s progress
toward achieving the goal of interoperability.

      According to the DHS CIO, DOJ and DHS can achieve interoperability,
including wireless communications interoperability, through gateways
between JUTNet and OneNet, the two primary departmental networks. The
DHS CIO told us that because the DHS cannot wait for IWN, it has included




       53
          National Commission on Terrorist Attacks Upon the United States, Final Report of
the National Commission on Terrorist Attacks Upon the United States (2004)

                                            36
the requirement for IWN interoperability in its recent Secure Border Initiative
contract. 54

      According to the DOJ Chief Information Officer, DHS’s following an
independent approach would not rule out interoperability, but the resulting
communication system may not be as well coordinated as a system
developed through an integrated approach and may make interoperability
more difficult and costly to achieve. The DOJ Deputy CIO for Information
Sharing told us that the JUTNet and OneNet networks could connect major
points such as agency field offices through traditional land lines. This official
told us that once these networks are established, interoperability between
the systems would be fairly simple, but not an inherent part of the networks.

      The Treasury Chief Information Officer advised us that if DHS pursues
an independent approach “interoperability will be fuzzy,” and that as long as
one department is free to go their own way, nothing can be done to improve
interoperability. He also stated that the goal of all the departments is to
increase interoperability, not only for emergency situations, but for
day-to-day operations. The Treasury Chief Information Officer told the OIG
that “At the end of the day, no one wants to be the department that did not
work to develop interoperability. Each of the representatives has leadership
responsibilities to do what is best for the government.”

      The level of interoperability described by the IWN Executive Board
representatives does not reflect the seamless communications capability
originally envisioned for the network and, in our judgment, may not be
adequate in the event of another terrorist attack or natural disaster.

Conclusion

      Our audit found that the IWN program is facing significant challenges
and a high risk that the joint narrowband communications network originally
envisioned for the DOJ, DHS, and Treasury will not be realized. Despite over
6 years of development and more than $195 million in funding for IWN,
apart from one pilot system DOJ law enforcement agents have received little
in the way of new, secure, compliant radio equipment through IWN. We
found that the causes for the risk of failure include uncertain funding to
complete the project, disparate departmental funding mechanisms, a


       54
            The Secure Border Initiative (SBI) is a comprehensive multi-year plan to secure
America’s borders. On September 18, 2006, DHS awarded a contract for information
technology services, including telecommunications services, to implement SBInet along the
United States northern and southern borders. SBInet is intended to detect and identify
illegal entry attempts at U.S. land borders with Mexico and Canada.

                                            37
fractured IWN partnership, and the lack of an effective governing structure
for the project.

       A failure of the IWN project would represent a significant missed
opportunity to achieve needed communications interoperability among
federal, state, and local law enforcement agencies. In addition, failure of the
joint IWN project will require DOJ and other agencies to independently
create communications networks, which we believe would result in
substantially increased overall costs and less efficient use of the radio
spectrum. Moreover, failure to upgrade DOJ components’ antiquated
communications systems with or without IWN would represent an
unnecessary risk to the safety of DOJ law enforcement agents and
Department law enforcement operations.

      DOJ has been relying on IWN to address a myriad of problems with its
current wireless communications systems, which consist of multiple
stove-piped land mobile radio systems with infrastructure dating back 15 to
20 years. Over the years, the performance of these systems has degraded
in terms of coverage, reliability, and usability. Of the Department’s
4,163 radio system sites 3,022 are no longer supported by the
manufacturer, which means spare parts are difficult to find and maintenance
is essentially a “custom service.” In addition, much of the Department’s
current radio equipment is large and obtrusive. We were told that the size
of current hand-held radios, combined with their limited functionality and
decreasing reliability, has lead some DOJ agents to use commercial cellular
telephones and walkie-talkies that are vulnerable to interception in lieu of
hand-held radios.

       Just to replace DOJ’s antiquated legacy wireless communications
equipment would cost DOJ approximately $900 million. However, the DOJ
will require more than twice that amount to fund its share of IWN.
Consequently, for the DOJ, DHS, and Treasury to complete IWN as planned,
a major infusion of funding will be required over the next several years.

       Our audit found that the fractured nature of the current IWN
partnership and the disjointed approach of the two primary partners to
achieve the IWN goals seriously threaten the success of the IWN program.
In order to salvage the intended multi-agency project, we believe IWN
requires a partnership among the agencies involved with a commitment to
common goals and methods to achieve those goals. DOJ, DHS, and
Treasury need to commit to a joint IWN solution rather than addressing
individual communications issues in their respective departments. The three
departments also must develop a cohesive management approach to direct
IWN development and deployment.

                                      38
      The current ineffective governing structure of the IWN program has led
to significant delays in the program. Valuable time has been spent reaching
decisions between agencies that are revisited due to turnover of key
personnel. Due to the complexity, expense, and critical nature of this
program, a coordinated and effective governing structure is imperative for
IWN to succeed.

Recommendations

     We recommend that:

     1.    DOJ reach an agreement with the DHS and Treasury Deputy
           Secretaries that reflects each agency’s commitment to the IWN
           project. This agreement should explicitly state the shared goals,
           responsibilities, and resource contributions and funding
           requirements of the sponsoring departments.

     2.    If the departments are unable to reach agreement on a unified
           approach, we recommend that the DOJ notify Congress and the
           Office of Management and Budget that the IWN project is not
           viable as a joint project with DHS, and that the three
           Departments are pursuing their own IWN strategy to meet their
           wireless communications requirements.

     3.    In addition, if DOJ is unable to reach agreement on a unified
           approach with DHS and Treasury, the DOJ should develop and
           implement a departmental plan to upgrade its legacy wireless
           communications systems.

     4.    Require the Assistant Attorney General for Administration to
           ensure that an agreement is reached that allows DOJ to continue
           its wideband operations on very high and ultra high frequencies
           without interference.




                                    39
        STATEMENT ON COMPLIANCE WITH LAWS AND
                     REGULATIONS


       We conducted our audit of the Integrated Wireless Network in
accordance with Government Auditing Standards. In connection with the
audit, and as required by the standards, we reviewed management
processes and records to obtain reasonable assurance about the
organization’s compliance with laws and regulations that, if not complied
with, in our judgment, could have a material effect on IWN.

      We audited IWN at the headquarters offices of DOJ, the Joint Program
Office, and visited an FBI field office and a FEMA regional office. We
performed fieldwork between January and October 2006. We also
interviewed the DHS and Treasury CIOs and the Director of the DHS
Wireless Management Office. Our audit included an analysis of the strategic
and program level management of IWN and a determination of the level of
departmental compliance with a federal mandate.

      Our audit included examining evidence concerning laws and
regulations. The specific laws and regulations we reviewed included the
Telecommunications Authorization Act of 1992 and the NTIA Narrowband
Mandate of 1993.

      While performing our audit, we determined that DOJ is not in
compliance with the NTIA Narrowband Mandate of 1993. DOJ is aware of
this non-compliance issue and its consequences as discussed beginning on
page 33 of this report.

      With respect to areas that were not tested, nothing came to our
attention that caused us to believe that DOJ was not in compliance with the
laws and regulations cited above.




                                     40
              STATEMENT ON INTERNAL CONTROLS


      In planning and performing the audit of IWN, the OIG considered the
internal controls of the Office of DOJ Chief Information Officer, the Joint
Program Office, and the Wireless Management Office for the purpose of
determining our auditing procedures. The OIG did not make the evaluation
for the purpose of providing assurance on the internal control structure of
the Office of the Chief Information Officer, the Joint Program Office, or the
Wireless Management Office as a whole; however, there are certain matters
considered reportable conditions under generally accepted government
auditing standards.

       Reportable conditions involve matters coming to the attention of the
OIG relating to significant deficiencies in the design or operations of the
internal control structure. If present, these conditions could adversely affect
the ability of the DOJ Chief Information Officer as the DOJ representative on
the IWN Executive Board to develop, implement, and manage the operation
of a joint wireless communication system, the ability of the Joint Program
Office to implement IWN within established cost and time parameters, and
the ability of the Wireless Management Office to oversee and direct the
development of wireless communications. We identified the following
reportable conditions with respect to the IWN project. These issues are
discussed in detail in the body of the report.

      •     The Joint Program Office did not have an effective
            method to monitor and report the cost of Joint
            Program Office projects. As a result, critical
            information necessary to reach informed decisions is
            not available to IWN decision-makers.

      •     There is not adequate documentation of actions and
            decisions taken by the IWN Executive Board, the
            Joint Program Office, or the Wireless
            Communications Board. As a result, there is not an
            objective basis for evaluating the performance of
            these organizations. In addition, the inadequate
            documentation of proceedings related to the IWN
            program proceedings has fostered doubts regarding
            program decisions that relate directly to agent and
            officer safety.




                                      41
                                                                 APPENDIX 1


           OBJECTIVES, SCOPE, AND METHODOLOGY


Audit Objectives

      The objectives of the audit were to:

      •     assess the implementation of the IWN project, and

      •     assess whether DOJ legacy communication systems comply with
            the National Telecommunications and Information
            Administration’s requirements.


Scope and Methodology

      We performed our audit in accordance with Government Auditing
Standards and included such tests as were considered necessary to
accomplish our audit objective. It should be noted that the Department of
Justice, Office of the Inspector General is a participant in the IWN project,
but as noted in the introduction to this report the DOJ OIG comprises only
0.19 percent of the universe of potential IWN users. Therefore, the OIG's
limited participation in IWN had no effect on our general audit scope,
methodology, or results, and no OIG transactions related to IWN were
included in our audit.

       Our audit concentrated on, but was not limited to FYs 2000 through
2006. We conducted fieldwork at the Joint Program Office and the DOJ
Wireless Management Office in Fairfax, Virginia, DOJ, JMD, Procurement
Services Staff in Washington, D.C., the headquarters offices of the ATF and
DEA, and the facilities of Seattle/Blaine Pilot Project site in the
Seattle, Washington area. We interviewed the Chief Information Officers of
DOJ, DHS, and Treasury and the Directors of the DOJ and DHS Wireless
Management Offices. We also interviewed the DOJ Deputy Chief Information
Officer Information Sharing, Deputy Directors of the ATF, FBI, and USMS,
and an Assistant Administrator of the DEA. In addition, we interviewed the
DOJ Spectrum Manager, the DOJ IWN Program Manager, and the DOJ
Wireless Management Office Administration Officer. At the Seattle/Blaine
Pilot Project, we conducted interviews with the FBI Special Agent in Charge,
the FBI Telecommunications Manager, the Chief Deputy U.S. Marshal and
FBI agents and deputy U.S. Marshals.

     We examined pertinent documents, including the memorandum of
understanding between DOJ, DHS, and Treasury; the Fiscal Year 2005

                                      42
                                                            APPENDIX 1


Program Plan; the IWN Strategic Plan for 2003-2008; the Program Weekly
Status Reviews; the IWN Executive Status Reports; and the weekly
Memorandum for IWN Seattle/Blaine Service Area. We examined DOJ’s
FY 2006 Performance Budget for Narrowband Communications and other
documents such as monthly reports of Obligation Analysis by Sub-Object
Class.

       We interviewed the Chief of the Spectrum Support Division of the
Office of Spectrum Management at the Department of Commerce’s National
Telecommunications and Information Administration (NTIA). We examined
the Telecommunications Authorization Act of 1992 and the NTIA Narrowband
Mandate of 1993. We obtained documents from the NTIA that discussed the
process for requesting waivers and the proposed rule of the Frequency
Assignment Subcommittee to prohibit waivers for wideband operations that
interfere with narrowband operations. We also reviewed NTIA reports of
frequency assignments and waivers for noncompliant frequencies.

      We assessed the progress of the 3-phase acquisition plan to contract
with one or more non-government vendors to build IWN across the country.
We reviewed the proposals of the four vendors selected to compete in Phase
2 and interviewed component members who served on the management and
technical evaluation teams. We also interviewed the Assistant Director of
DOJ’s Procurement Services Staff.




                                   43
                                                         APPENDIX 2


                          ACRONYMS


ATF    Bureau of Alcohol, Tobacco, Firearms, and Explosives

CIO    Chief Information Officer

DEA    Drug Enforcement Administration

DHS    Department of Homeland Security

DOJ    Department of Justice

FBI    Federal Bureau of Investigation

FY     Fiscal Year

IWN    Integrated Wireless Network

JMD    Justice Management Division

MOU    Memorandum of Understanding

NTIA   National Telecommunications Information Administration

OIG    Office of the Inspector General

OTAR   Over-the-air-re-keying

USMS   U. S. Marshals Service




                                   44
                                                                             APPENDIX 3


                     DESCRIPTION OF IWN
                  SOUTHWESTERN BORDER AREA


Excerpt from Integrated Wireless Network Contract Task Orders

C.1.10.2   Coverage
           The First Service Area is divided into six areas (A-F) bounded as follows:

           Area A:
           ●     North: 10 miles north of and following the centerline of I-8 in Arizona;
                 and then 10 miles north of and following the centerline of I-10 east of its
                 intersection with I-8
           ●     South: Southwestern Arizona border with Mexico, and Southeastern
                 California border with Mexico
           ●     East: Area B; and south of Area B, the eastern boundary is 10 miles west
                 of and following the centerline of I-19
           ●     West: 15 miles radius surrounding the location defined by latitude
                 N32.677450, longitude W114.620157 (Yuma), extending into California
                 but not Mexico

           Area B:
           ●      25 mile radius surrounding the location defined by latitude N32.195816,
                  longitude W110.891717 (City of Tucson)

           Area C:
           ●      North:   10 miles north of and following the centerline of I-10 in Arizona
           ●      South:   Southeastern Arizona border with Mexico
           ●      East:    Arizona-New Mexico state line
           ●      West:    Area A and Area B

           Area D:
           ●     North:    10 miles north of and following the centerline of I-10 in New Mexico
           ●     South:    Southwestern New Mexico border with Mexico
           ●     East:     Area E
           ●     West:     Arizona-New Mexico state line

           Area E:
           ●      North: 30 mile radius surrounding the location defined by latitude
                  N32.323700, longitude W106.756674 (Las Cruces, NM)
           ●      South: Southwestern New Mexico border with Mexico, and Southwestern
                  Texas border with Mexico
           ●      East: 30 mile radius surrounding the location defined by latitude
                  N32.323700, longitude W106.756674 (Las Cruces, NM); 30 mile radius
                  surrounding the location defined by latitude N31.849250, longitude


                                            45
                                                            APPENDIX 3

      W106.437549 (El Paso, TX), but not extending into Mexico; and 30 miles
      east of the line connecting these two locations (along the line)
●     West: 30 miles west of the line connecting the locations defined by
      latitude N32.323700, longitude W106.756674 (Las Cruces, NM) and
      latitude N31.849250, longitude W106.437549 (El Paso, TX)

Area F:
●      North:   Texas-New Mexico state line
●      South:   Southwestern Texas border with Mexico
●      East:    Eastern border of Hudspeth County
●      West:    Area E




                               46
                        APPENDIX 4


DHS DOJ Treasury
MOU




                   47
     APPENDIX 4




48
     APPENDIX 4




49
     APPENDIX 4




50
     APPENDIX 4




51
     APPENDIX 4




52
                                                                   APPENDIX 5


 AGENCY VERY HIGH FREQUENCY LICENSES AND PERCENT
                    COMPLIANT
              AS OF FEBRUARY 3, 2005


      The tables below show the government agencies in the very high
frequency band, the number of licenses for each agency, and the level of
narrowband compliance for each agency. The sponsoring departments of
IWN are in boldface type.

                                                                    PERCENT
                                                    LICENSES NARROWBAND
                        AGENCY                       ISSUED        COMPLIANT
    Department of Justice                              14,987             16%
    Department of the Interior                           9,653            71%
    Department of Homeland Security                      9,564            24%
    Department of Agriculture                            8,967            82%
    Federal Aviation Administration                      4,409            32%
    Department of Commerce                               4,237            36%
    Department of Energy                                 2,529            37%
    U.S. Army                                            2,412            54%
    U.S. Air Force                                       1,583            66%
    Non-Member Agencies                                  1,520            60%
    Department of Treasury                               1,175            65%
    Veterans Administration                              1,175            73%
    U.S. Coast Guard                                     1,144            38%
    United States Postal Service                           712            30%
    Tennessee Valley Authority                             553            87%
    National Aeronautical and Space Administration         184            60%
    U.S. Navy                                              182            30%
    Federal Communications Commission                      114             0%
    Department of Transportation                            99            12%
    National Science Foundation                             29             3%
    General Services Administration                         27             4%
    Broadcasting Board of Governors                         15             0%
    Federal Reserve System                                   7             0%
    Department of Education                                  1             0%
      Total                                             65,278            45%
   Source: National Telecommunications and Information Administration




                                       53
                                                                 APPENDIX 5


AGENCY VERY HIGH FREQUENCY LICENSES AND PERCENT
                   COMPLIANT
               AS OF APRIL 18, 2006


                                                                  PERCENT
                                                  LICENSES NARROWBAND
                     AGENCY                        ISSUED        COMPLIANT
  Department of Justice                              14,617             22%
  Department of the Interior                           9,983            80%
  Department of Homeland Security                      9,360            32%
  Agriculture                                          8,927            86%
  Federal Aviation Administration                      4,623            37%
  Commerce                                             4,263            42%
  Army                                                 2,224            76%
  Energy                                               2,216            43%
  Non-Member Agencies                                  1,585            64%
  Air Force                                            1,282            92%
  U. S. Coast Guard                                    1,152            59%
  Treasury                                             1,131            85%
  Veterans Administration                                947            98%
  United States Postal Service                           716            33%
  Tennessee Valley Authority                             492            95%
  National Aeronautical and Space Administration         161            80%
  Navy                                                   116            59%
  Federal Communications Commission                      114             0%
  Department of Transportation                           103            15%
  National Science Foundation                             22             5%
  General Services Administration                         21             0%
  Broadcasting Board of Governors                         15             0%
  Education                                                1           100%
  Federal Reserve System                                   1             0%
    Total                                             64,072            53%
 Source: National Telecommunications and Information Administration




                                     54
                                                                     APPENDIX 6


             WAIVERS GRANTED BY NTIA DURING
                   CALENDAR YEAR 2005


     The following tables show the number of waivers granted to each
government agency for calendar years 2005 and 2006. The sponsoring
departments of IWN are in boldface type.

                                                            WAIVERS
                              AGENCY
                                                            GRANTED
           Department of Justice                               12,378
           Federal Aviation Administration                       2,197
           Department of the Interior                            2,009
           Department of Homeland Security                       1,740
           U.S. Coast Guard                                        519
           Department of Energy                                    363
           United States Postal Service                            346
           Non-Member Agencies                                     249
           U.S. Army                                               234
           Federal Communications Commission                       114
           Veterans Administration                                  54
           National Aeronautical and Space Administration           47
           Tennessee Valley Authority                               47
           Department of Commerce                                   20
           General Services Administration                          16
           Broadcasting Board of Governors                          15
           National Science Foundation                                7
           U.S. Air Force                                             5
           Department of Treasury                                     2
           Department of Agriculture                                  0
           Department of Education                                    0
           Federal Reserve System                                     0
           U.S. Navy                                                  0
           Department of Transportation                               0
           Total                                                20,362
          Source: National Telecommunications and Information Administration




                                        55
                                                           APPENDIX 6


       WAIVERS GRANTED BY NTIA IN
          CALENDAR YEAR 2006


                                                  WAIVERS
                    AGENCY
                                                  GRANTED
 Department of Justice                               11,178
 Department of Homeland Security                       4,868
 Federal Aviation Administration                       2,008
 Department of the Interior                            1,669
 United States Postal Service                            340
 U.S. Coast Guard                                        305
 Non-Member Agencies                                     159
 U.S. Army                                               108
 Department of Energy                                     48
 Broadcasting Board of Governors                          10
 National Aeronautical and Space Administration           10
 U.S. Air Force                                            1
 Department of Agriculture                                 0
 Department of Commerce                                    0
 Department of Education                                   0
 Federal Communications Commission                         0
 Federal Reserve System                                    0
 General Services Administration                           0
 National Science Foundation                               0
 U.S. Navy                                                 0
 Tennessee Valley Authority                                0
 Department of Transportation                              0
 Department of Treasury                                    0
 Veterans Administration                                   0
 Total                                                20,704
Source: National Telecommunications and Information Administration




                             56
                                                                               APPENDIX 7




                           DEPARTMENT OF THE TREASURY
                                     WASHINGTON, D.C. 20220




MEMORANDUM FOR ROBERT J. KAUFMAN
               DALLAS REGIONAL AUDIT MANAGER
               DEPARTMENT OF JUSTICE

FROM:                     Edward A. Roback
                          Acting Chief Information Officer

SUBJECT:                  Progress Report on Development of the Integrated Wireless
                          Network in the Department of Justice

On behalf of the Assistant Secretary for Management, we thank you for the opportunity to
review the Department of Justice (DOJ) Office of the Inspector General (OIG) Draft Audit
Report, "Progress Report on Development of the Integrated Wireless Network in the
Department of Justice." The Department of the Treasury (Treasury) has reviewed the report and
does not have any comments.

Additionally, we have reviewed the draft report for law enforcement sensitive information in
response to your request. We have not identified any concerns in this regard that would impair
the operations of the Treasury and its Bureaus. Treasury has also completed the Record of
Sensitivity Review, attached, and is faxing it to Mr. Robert J. Kaufman at the Dallas Regional
Audit Manager.

Please feel free to contact Kenneth Riccini, Associate Chief Information Officer for
Telecommunications Management, with any questions you may have. He can be reached at (202)
622-2047.

Attachments

cc:    Harold Damelin
       Inspector General
       Department of the Treasury

       Marla Freedman
       Assistant Inspector General for Audit
       Department of the Treasury



                                               57
                                             APPENDIX 7

Guy K. Zimmerman
Assistant Inspector General for Audit
Department of Justice

Wesley T. Foster
Acting Assistant Secretary for Management
Department of the Treasury




                                        58
                                                                APPENDIX 8


             DEPARTMENT OF HOMELAND SECURITY
              RESPONSE TO DRAFT AUDIT REPORT
                     (via e-mail dated March 16, 2007)


      Thank you for your report which succinctly identifies the pertinent
issues with the IWN program.

      The DOJIG report identifies significant DOJ affordability issues with
replacing obsolete DOJ communications equipment in general; and in
funding the IWN program in particular. As recommended by the DOJIG,
DHS will work with DOJ and Treasury to assess the viability of IWN as a joint
project, assuring appropriate interoperability and determine what should be
the best way ahead for all three Departments.

     I communicated the above in a phone call with the Assistant Attorney
General for Administration.

Paul Schneider
Under Secretary for Management, DHS




                                     59
                                                                                 APPENDIX 9
                                                                   U. S. Department of Justice


March 8, 2007                                                             Washington, D.C. 20530




MEMORANDUM FOR GLENN A. FINE
               Inspector General


FROM:                     Lee J. Loftus
                          Assistant Atto
                            For Admin


SUBJECT:                  Response to the Office of the Inspector General's (OIG) Draft
                          Report: Progress Report on Development of the Integrated
                          Wireless Network in the Department of Justice

This responds to the Office of the Inspector General's (OIG) Draft Report: Progress
Report on Development of the Integrated Wireless Network in the Department of Justice.

Recommendation 1: Department of Justice (DOJ) reach an agreement with the
Department of Homeland Security (DHS) and the Department of the Treasury Secretaries
that reflects each agency's commitment to the Integrated Wireless Network (IWN)
project. This agreement should explicitly state the shared goals, responsibilities, and
resource contributions and funding requirements of the sponsoring departments.

Response: DOJ is currently working with DHS and Treasury to update and modify the
IWN Memorandum of Understanding (MOU). This updated MOU will clearly define the
responsibilities, resources, and funding requirements for each department and reflect the
shared goals and commitments each agency has to the IWN program.

As part of this process, the Wireless Management Office (WMO) program management
staff has re-examined the MOU and remains committed to a joint IWN program with the
acquisition goals agreed to in the original IWN MOU and acquisition strategy. In an
effort to reconcile differences between the departments, senior program managers from
DOJ, DHS, and Treasury have been meeting over the past few months. The DOJ Chief
Information Officer (CIO) intends to meet with the CIOs from DHS and Treasury in the
near future to bring a resolution to these issues.

Recommendation 2: If the departments are unable to reach agreement on a unified
approach, we recommend that the DOJ notify Congress and the Office of Management
and Budget (OMB) that the IWN project is not viable as a joint project with DHS, and
that the three Departments are pursuing their own IWN strategy to meet their wireless
communications requirements.

                                               60
                                                                        APPENDIX 9
                                                                             Page 2

Response: If it becomes clear that the departments are unable to reach agreement on a
unified program approach, DOJ will be ready to notify OMB and Congress that IWN is
not viable as a joint program with DHS. As part of our program planning and risk
management, we are formulating plans that will allow DOJ to move forward with the
IWN program as a single department program or as a joint program with Treasury.

Based on component inputs, we have prioritized the top five DOJ IWN service areas for
IWN system implementation. The WMO is generating an acquisition strategy and
program plan that will meet these requirements. The Department will refine its plans
based on final decisions on the partnership between DOJ and DHS.

Recommendation 3: In addition, if DOJ is unable to reach agreement on a unified
approach with DHS and Treasury, the DOJ should develop and implement a departmental
plan to upgrade its legacy wireless communications systems.

Response: The WMO is working with the components to establish practical plans for
upgrading component legacy systems in concert with whatever long-term plan the
Department decides upon for the IWN.

If a unified approach is not settled with DHS, DOJ is supportive of the development of
the Justice Wireless Network (JWN). A JWN steering committee or board composed of
communications program managers from each component, with support from the DOJ
WMO, would be effective in promoting equal representation with the Department and
would ensure that operational requirements are met. The current relationship and
accomplishments of the United States Marshals Service (USMS)/ Federal Bureau of
Investigation (FBI) consolidation effort could serve as a model of what all components
can accomplish with mutual cooperation and support from the Department.

Recommendation 4: Require the Assistant Attorney General for Administration to
ensure that an agreement is reached that allows DOJ to continue its wideband operations
on very high frequencies without interference.

Response: The Department has been discussing this issue with the National
Telecommunications and Information Administration (NTIA) and will continue to work
with the NTIA to reach a practical plan that allows DOJ to continue its operations
without risk while making due progress on meeting the narrowband mandate. The
Department has scheduled a meeting for March 30, 2007, with the Commerce Assistant
Secretary John Kneuer, to brief on the status of the IWN program and DOJ's plans for
addressing the narrowband mandate.




                                           61
                                                                               APPENDIX 9

                                                                                   Page 3



The Office of the CIO offers an additional comment related to a statement made on page 38 of
the report that reads:

Despite over 6 years of development and more than $195 million in funding for IWN
apart from one pilot system DOJ law enforcement agents have received little in the way
of new, secure, compliant radio equipment through the IWN.

While the IWN program has clearly not progressed as rapidly as desired by the
Department, the statement above is not an accurate reflection of what the Department has
achieved. The Department believes that the OIG report should recognize the accomplishments of
the program, including the following:

1. The Department has purchased and provided to the components 32,506 new digital portable
and mobile radios;

2. The Department implemented 12 federal interoperability channels in 10 cities that
allow DOJ agents to communicate with their counterparts in other federal, state and local
agencies.

3. The IWN acquisition strategy has yielded unprecedented competition for tactical
wireless communications (where little existed before). This competition has resulted in
new ideas and options for DOJ to solve its communications requirements. The
competition also has helped to accelerate the development of industry standards for radio
systems, which should reduce unit prices for radio equipment. The Department has seen clear
evidence of this during the design competition that we conducted as part of Phase 3 of the IWN
acquisition process. Finally, both vendors participating in the design
competition have showed the Government working prototypes of inter-system gateways. These
gateways were developed with IWN in mind, but will be useful to the public safety community
nation-wide.

4. The Department has gained a much better understanding of the wide array of potential
security issues incumbent with the new wireless communications technologies, and has worked
proactively with industry to resolve these issues.

If you have any questions concerning this subject, please contact Vance E. Hitch, Chief
Information Officer, on 202-514-0507 or Michael D. Duffy, Deputy Chief Information
Officer, on 202-305-4568.




                                               62
                                                               APPENDIX 10


  OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
  ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                  CLOSE THE REPORT


      We provided the draft audit report to JMD, ATF, DEA, FBI, and USMS
and asked JMD to provide a consolidated DOJ response to the draft report.
We also provided the draft report to Treasury and DHS and asked for their
responses. Our analysis of each Department’s response, if applicable, is
provided below. Following our analysis of the responses, we summarize the
status of each recommendation and discuss the actions necessary to close
the recommendation.

DOJ Response

       JMD, which responded on behalf of the DOJ, generally concurred with
our findings and agreed with our recommendations. The response
expressed support for the development of the Justice Wireless Network in
the event that a unified approach with DHS is determined not to be viable.
JMD’s response identifies a Justice Wireless Network steering committee or
board, with support from the DOJ Wireless Management Office, as a vehicle
to promote component representation and ensure that operational
requirements are met. In our judgment, a steering committee or board with
support from the DOJ Wireless Management Office could provide DOJ
components with a means to contribute to the design and execution of the
program and would increase their confidence in the program.

      JMD’s response also included comments from the Office of the Chief
Information Officer regarding our conclusion on page 37 that DOJ law
enforcement agents have received very little in the way of new, secure,
compliant radio equipment through IWN. The response noted that,”While
the IWN program has clearly not progressed as rapidly as desired by the
Department, the statement is not an accurate reflection of what the
Department has achieved.”

       The response identified several program accomplishments, including
the procurement and provision of 32,506 new digital radios, implementation
of interoperability channels in 10 cities, realization of benefits from the IWN
acquisition strategy, and improved understanding of security issues related
to new wireless communications technologies. However, as noted on page 7
of this report, most DOJ law enforcement officers cannot use all of the
features of this new equipment because the system sites are old —
95 percent of the system sites do not meet advanced encryption standards



                                      63
                                                              APPENDIX 10


and 85 percent of the system sites do not support over-the-air re-keying.
After 6 years of development, as indicated on pages 31 and 32, 67 percent
of DOJ’s legacy communications systems are over 10 years old and 73
percent of the Department’s radio system sites are no longer supported by
the manufacturer. In addition, the DOJ has the lowest rate of compliance
with the narrowband mandate (page 34 of this report) and, according to the
DOJ spectrum manager, will continue to seek waivers until the acquisition
process is complete and IWN is implemented across the country (page 35 of
this report).

Treasury Response

     We provided a copy of the draft report and asked Treasury for
comment. The Treasury response in Appendix 7 noted that our draft report
was reviewed and that Treasury did not have any comments.

DHS Response

      We provided a copy of the draft audit report and asked DHS for
comment. The DHS response is reproduced in Appendix 8. The response
noted that there are significant DOJ affordability issues with replacing
obsolete DOJ communications equipment in general, and in funding the IWN
program in particular. The response also indicated that DHS would work
with DOJ and Treasury to assess the viability of IWN as a joint project and to
determine the best way ahead for all three departments.

Status of Recommendations

1.    Resolved. JMD stated that the Wireless Management Office is
      committed to a joint Integrated Wireless Network program and that
      DOJ is currently working with DHS and Treasury to update and modify
      the Integrated Wireless Network Memorandum of Understanding. JMD
      reported that senior program managers from DOJ, DHS, and Treasury
      have been meeting over the past few months to reconcile differences
      between the Departments and that the DOJ Chief Information Officer
      intends to meet with the Chief Information Officers from DHS and
      Treasury in the near future to bring a resolution to these issues. This
      recommendation can be closed when DOJ, DHS, and Treasury sign a
      Memorandum of Understanding that clearly outlines the shared goals
      of the sponsoring Departments and establishes equitable
      responsibilities and contributions for each sponsoring Department or
      when DOJ notifies the Office of Management and Budget and Congress
      that the Integrated Wireless Network is not viable as a joint project
      with DHS and that the three Departments are pursuing their own


                                     64
                                                             APPENDIX 10


     strategies to meet their wireless communications needs.

2.   Resolved. JMD’s response stated that if it becomes clear that the
     Departments are unable to reach agreement on a unified program
     approach, DOJ will be ready to notify the Office of Management and
     Budget and Congress that the Integrated Wireless Network is not
     viable as a joint program with DHS. This recommendation can be
     closed when DOJ, DHS, and the Treasury sign a Memorandum of
     Understanding that clearly outlines the shared goals of the sponsoring
     Departments and establishes equitable responsibilities and
     contributions for each sponsoring Department or when DOJ notifies the
     Office of Management and Budget and Congress that the Integrated
     Wireless Network is not viable as a joint project with DHS and that the
     three Departments are pursuing their own separate strategies to meet
     their wireless communications needs.

3.   Resolved. JMD responded that, as part of its program planning and
     risk management, DOJ is formulating plans that will allow DOJ to move
     forward with the Integrated Wireless Network program as a single
     Department program or as a joint program with Treasury. Further,
     JMD’s response stated that the Wireless Management Office is working
     with the components to establish practical plans for upgrading
     component legacy systems in concert with whatever long-term plan
     the Department decides upon for the Integrated Wireless Network.
     This recommendation can be closed when DOJ, DHS, and Treasury
     sign a Memorandum of Understanding that clearly outlines the shared
     goals of the sponsoring Departments and establishes equitable
     responsibilities and contributions for each sponsoring Department or
     when DOJ independently implements a plan to upgrade its legacy
     communications systems or as part of a joint program with Treasury.

4.   Resolved. JMD stated that DOJ has been discussing with the National
     Telecommunications and Information Administration the need for
     continued protected status for DOJ’s wideband communications
     operations. JMD’s response stated that DOJ will brief the Department
     of Commerce Assistant Secretary for Communications and Information
     on the status of the Integrated Wireless Network program and DOJ’s
     plans for addressing the narrowband mandate. This recommendation
     can be closed when DOJ and the NTIA reach an agreement to allow
     DOJ wideband communications operations to continue without
     interference from operations of other government agencies.




                                    65
